<html>
<title> - MAKING AMERICA'S STREETS SAFER: THE FUTURE OF THE COPS PROGRAM</title>
<body><pre>[Senate Hearing 107-705]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-705
 
     MAKING AMERICA'S STREETS SAFER: THE FUTURE OF THE COPS PROGRAM
=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CRIME AND DRUGS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 5, 2001

                               __________

                          Serial No. J-107-51

                               __________

         Printed for the use of the Committee on the Judiciary








                          U.S. GOVERNMENT PRINTING OFFICE
81-999                             WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         JEFF SESSIONS, Alabama
RICHARD J. DURBIN, Illinois          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           MITCH McCONNELL, Kentucky
JOHN EDWARDS, North Carolina
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director
                                 ------                                

                    Subcommittee on Crime and Drugs

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PATRICK J. LEAHY, Vermont            CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
HERBERT KOHL, Wisconsin              MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
                 George Ellard, Majority Chief Counsel
                   Rita Lari, Minority Chief Counsel




                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware.......................................................     1
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................    67
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa.     7
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     9
Kohl, Hon. Herbert, a U.S. Senator from the State of Wisconsin...    64
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................    68

                               WITNESSES

Brown, Mike, Sheriff, Bedford County, Virginia and National 
  Sheriffs' Association..........................................    35
Dinh, Viet D., Assistant Attorney General, Office of Legal 
  Policy, Department of Justice, Washington, D.C.................    10
Gordon, Hon. Thomas P., County Executive, New Castle County, 
  Delaware.......................................................    25
Muhlhausen, David, Policy Analyst, Heritage Foundation, 
  Washington, D.C................................................    45
Westphal, Colonel Lonnie, Chief, Colorado State Patrol, and Vice 
  President, International Association of Chiefs of Police.......    31
Young, Steve, Lieutenant, Marion City Police Department and 
  National President, Fraternal Order of Police, Washington, D.C.    39
Zhao, Solomon, Professor, Department of Criminal Justice, 
  University of Nebraska at Omaha, Omaha, Nebraska...............    42

                         QUESTIONS AND ANSWERS

Responses of Mr. Zhao to questions submitted by the Subcommittee.    67


     MAKING AMERICA'S STREETS SAFER: THE FUTURE OF THE COPS PROGRAM

                              ----------                              


                      WEDNESDAY, DECEMBER 5, 2001

                              United States Senate,
                   Subcommittee on Crime and Drugs,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 1:35 p.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Chairman of the Subcommittee, presiding.
    Present: Senators Biden and Grassley.

OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR 
                   FROM THE STATE OF DELAWARE

    Chairman Biden. I think we will begin. Some of my 
colleagues will be coming in. There is a lot going on today.
    The most important event in Washington today is Strom 
Thurmond's ninety-ninth birthday. God love him. We just had a 
little party for him. Can you imagine that?
    Mr. Dinh. No, sir, I cannot.
    Chairman Biden. I think it is astounding, and he is an 
incredible guy.
    For years and years, we shared this room, shifting in this 
seat, him as chairman of the full Committee sitting here and me 
here or me as chairman and him sitting here. That does one of 
two things. It makes you very close friends or serious enemies, 
and it has made us very close friends.
    Studs Terkel said, ``Who would want to live to age 99?'' 
and the response--well, he actually said 90, and his own 
response was anybody who is 89.
    [Laughter.]
    Chairman Biden. I hear people saying, ``Gosh, I do not know 
whether I would want to live to be 99.'' Well, let me tell you, 
Strom Thurmond, God willing--and as my grandfather would say, 
the creek not rising--will be the only Senator in the history 
of America ever to serve here--well, he has already broken the 
record, but at age 100, that is his goal and, God love him, I 
hope he makes it.
    Welcome to spring in Washington, D.C., speaking of young 
people. We are going to get started here, and I imagine some of 
my colleagues will be coming in and out.
    I might note for the record, this is the first Subcommittee 
hearing of the old--it is kind of like where I started. I used 
to be the chairman of the Criminal Law Subcommittee, and here I 
have come full circle. I am back to being chairman of the 
Criminal Law Subcommittee, although some wag suggested that 
when I was chairman of the full Committee, all this was, was a 
criminal laws Committee, which I am kind of proud of, actually.
    At any rate, I would like to welcome you all to the first 
hearing of the Crime and Drugs Subcommittee, which is its 
technical name. It is no accident that this inaugural hearing 
of the Subcommittee is on ``Making America's Streets Safer: The 
Future of the COPS program.''
    I have long maintained the view, one shared by most of the 
witnesses today, particularly my county executive and his 
number-one assistant both having been former colonels of the 
New Castle County Police Department--in my State, the second-
largest police department--I have long maintained the view 
shared by them and many of you that our communities--our first 
responsibility as Government is to make our streets safe. It 
comes before everything. It comes before everything, including 
things I strongly support, education and a whole range of other 
things. If you cannot walk out in the street, all the rest of 
your civil liberties are somewhat diminished. Also, they share 
our commitment to put cops on the streets, as that being one of 
the most effective means of stopping crime.
    I used to say back in 1994 when Colonel Gordon, now County 
Executive Gordon, was helping me write the crime bill, and many 
of you in this room as well, and I do not know how many times 
you had to hear me say that the only thing we know for certain 
about crime is if there are four corners at an intersection 
with three cops on three of the four corners and there is going 
to be a crime committed, it will be committed on the corner 
where there is no cop. Cops make a difference. Cops prevent 
crime, Presence prevents crime.
    This afternoon's hearing is on the future of the COPS 
program; that is, the Community Oriented Policing Services 
program.
    We have very distinguished panels of witnesses with us 
today, and I am eager to hear your testimony. When I called 
this first hearing--and I want to be straight up with you all 
because most of the police officers in here are my friends and 
we have worked together a long time--I had two reasons for 
calling this hearing. I want to have no ulterior motive. I want 
my motive straight out front so everybody understands. First of 
all, I want to have a hearing on what has been, from The 
Heritage Foundation and other places, criticism that the COPS 
program does not work. I want to make the case because I think 
the studies show it works.
    I want to examine the COPS program and hear from local 
officials, sheriffs, chiefs, and criminologists on their views 
of the program. It was 7 years ago, we passed the Biden crime 
bill, and 100,000 new cops, more prisons and smart prevention. 
These were part of the equation that I thought, and many of you 
in the audience thought, would make our streets safer.
    In creating the COPS program, I had two primary purposes in 
mind; one, to encourage police departments to make a 
fundamental and critical shift in their philosophy by embracing 
the notion of community policing, something we all take for 
granted now--but back then in 1985, '6, '7, '8, and '9, up 
until 1994, it was not the norm--and, secondly, to deliver 
needed dollars to our police departments, our local police 
departments so they could beef up their forces.
    There are some things we have known about crime, as I said, 
that where there is a cop, crimes are not committed. This is 
not rocket science. Crimes are prevented by the presence of 
cops as well as the arrests that follow when one is committed, 
and where we are, 7 years later, I think is proof that what we 
had in mind made sense and worked.
    Crime is down 22 percent from the date the crime bill was 
signed. The percentage of cops who are community police 
officers went from 4 to 21 percent in just 3 years, and one of 
our witnesses today, a criminologist, will testify about the 
results of the first conference of academic analysis of the 
COPS program and its effects on crime in America. It was a 5-
year study that looked at 6,100 municipalities, covering 145 
million Americans, this study being released by the University 
of Nebraska, and our first witness today found unequivocally 
that more cops on the street result in significantly less 
crime.
    Specifically, the study found that for every dollar, for 
every one dollar we spent per person in a city with a 
population of 100,000 or more, it resulted in a decrease of 
over five violent crimes and a decrease in almost 22 property 
crimes in that jurisdiction. For every dollar per citizen we 
spent, it resulted in that change, and the numbers are even 
higher for targeted COPS program grants, which we will talk 
about later. There, a drop of 13 violent crimes and 45 property 
crimes occurred when we spent a dollar per citizen.
    It is the crime drop that everybody has been heralding, but 
is the crime drop attributed solely to the COPS program? The 
answer clearly to me is, no, it is not solely because of the 
COPS program, but to think that this increased police presence 
has not made a difference or, to put it another way, that we 
would have had these reductions in crime had we not passed the 
crime bill, I think is equally as foolish.
    Any police chief in the country will tell you that the best 
way to deter crime before it starts is to have a visible 
presence of officers in the community. You do not have to take 
my word for it. Let's ask police chiefs and sheriffs and county 
executives and criminologists on whether the COPS program has 
had an impact on the crime rate.
    But I call this hearing for a second reason, and I am not 
suggesting my reasons are shared by or the reason that my 
friend from Iowa is here. He may or may not agree with me on 
these. I am speaking only for myself. The second reason for 
calling this hearing is that this Nation is now in a very 
difficult time, engaged in a war against terrorism, and three 
developments have made me greatly concerned about the potential 
loss of valuable ground we have gained in our struggle against 
crime, a fight we have been winning now for almost a decade.
    First, I am very concerned that the administration may 
propose, as rumor has it, the elimination of the COPS program 
for the next budget cycle.
    Secondly, the FBI, necessarily, at this moment, has 
announced a massive and potentially permanent redeployment of 
their agents away from street crime investigations, thereby 
creating an enormous gap which State and local law enforcement 
will now have to fill if that occurs. I am not criticizing 
their judgment. They are now being redirected to counter-
terrorism. Unless we significantly beef up their capability, 
which I happen to support, there is going to be the necessity 
for them to pull away from bank robberies, auto thefts across 
State lines, all the things they are involved in now relating 
to local crime.
    The third concern that I have is the economic downturn is 
squeezing localities who will be forced to cut essential 
services, and I predict the first among them to go will be law 
enforcement personnel. They will have trouble finding the money 
to maintain existing police, let alone being able to hire new 
police to fill the gap left by the redeployed FBI agents.
    So there are three very interesting things happening out 
there, just as the crime rate has begun to get in the groove of 
continuing to come down, just as we have begun to learn how to 
walk and chew gum at the same time from a policy perspective. 
What are we thinking about? We are thinking about cutting or 
eliminating the very program that the Federal Government 
provides local money to maintain cops and cop-related programs. 
We are, necessarily and at least temporarily and possibly 
permanently, redeploying the FBI and Federal agencies away from 
local jurisdictional responsibilities they have taken on, 
adding the burden to local police agencies.
    Thirdly, a point I did not mention, the incredible drain of 
local resources to help in the counter-terrorism fight, to aid 
the FBI, has taken local law enforcement people off of the 
local crime beat to deal with the more urgent, immediate 
threat, and on top of it all, on top of all of this, we have a 
budget crisis that is going to, mark my words, get more extreme 
for every county executive, I say to my friend from Delaware, 
to every mayor, to every governor. That is going to pinch 
resources for maintaining even the present size of law 
enforcement agencies.
    Wouldn't it be ironic if our war on terrorism unwittingly 
undercut the successful fight against crime in the United 
States? Yet, some have, incredibly, actually suggested in the 
administration that we raid the COPS program to pay for the war 
on terrorism. We have to win both of these wars, and we are 
winning both of these wars. Indeed, it is time, in my view, to 
spend more money, not less money--more money, not less money--
on cops. Why penalize what has worked?
    You know, it is sort of like cutting grass. We in 
Government--and those of you in public service, police 
officers--we get penalized for our successes. When, in fact, 
things are going really bad, we can get all the money in the 
world we need at certain junctures to hire more cops, take 
certain actions, and act. Then, guess what? You all go out and 
put your lives on the line. You organize in a way that you are 
able to get it done. The crime rate actually drops. And what do 
we say? Hey, we got it down. We can now stop funding it, or 
fund it less.
    Professor, I would, respectfully, suggest that it is like 
cutting grass. I can cut my grass on a beautiful day in late 
May, and it looks magnificent, but it would be somewhat stupid 
of me then to turn around and say, ``My grass looks so good, I 
am selling my lawn mower. I do not need it anymore.'' It is 
literally like cutting grass. If you do not keep at it, the 
crime rate will rise. It will rise again.
    So where are we? Well, I have a proposal with 52 co-
sponsors we have not acted on yet--events internationally have 
overtaken it--52 sponsors, as I introduced several months ago, 
that funds enough money to hire 50,000 additional--more police 
officers, including money for new technology so law enforcement 
can have access to the highest-technology, crime-fighting 
equipment to keep pace with today's sophisticated criminals, 
and 52 of my colleagues have signed onto that.
    When police officers, chiefs, sheriffs, and mayors come to 
me today, as they did 7 years ago, and ask for a program to 
help them grow and modernize their police departments, I got 
all of them around my conference table, literally, not 
figuratively, their representatives, and asked them what they 
needed. It is time we did that again. It is time we listen to 
law enforcement again. They want more flexibility in their 
programs. They want more funds for school resource officers. 
They want more capability.
    I want to know where the administration is on COPS. I hope 
the rumors are not true. I hope we can make community policing 
a bipartisan issue, as it has been the last several years. 
Sometimes I feel like my friends on the other side of the aisle 
do not like COPS because it was not invented there. Well, a lot 
of Republicans did invent it. A lot of Republicans supported 
this being done. If that is the case, let's change the name of 
it. Let's call it the Bush crime bill. Let's call it the 
Republican crime bill. Let's call it whatever it takes to call 
it, if that is part of the problem, to keep the bill going.
    As a famous New York mayor put it over a half-a-century 
ago, there is no Democratic way or Republican way to clean the 
city streets. Likewise, there is no Democratic or Republican 
way to clean our streets of crime. The COPS program has a track 
record of success, and I say let's stick with it and expand it.
    [The prepared statement of Senator Biden follows.]

 Statement of Hon. Joseph R. Biden, Jr., A U.S. Senator from the State 
                              of Delaware

    I would like to welcome all of you to the first hearing of the new 
Crime and Drug Subcommittee. It's been a long time since there has been 
a subcommittee focused solely on these issues--I look forward to 
working with Senator Grassley on this panel.
    It is no accident that the inaugural hearing of this Subcommittee 
is on ``Making America's Streets Safer: The Future of the COPS 
Program.'' I have long maintained the view--one shared by most of our 
witnesses today--that our commitment to put more cops on the street is 
one of the most effective means of stopping crime before it can occur.
    This afternoon's hearing is on the future of the COPS program--that 
is the ``Communty Oriented Policing Services'' Program. We have a very 
distinguished panel of witnesses here with us, and I am eager to hear 
their testimony.
    I called this hearing for two simple reasons:
    First, I want to find out whether the COPS program has worked? 
Let's examine COPS and hear from local officials, sheriffs, chiefs and 
criminologists on their views of the program.
    Seven years ago, we passed the Biden Crime Bill. 100,000 new cops. 
More prisons. Smart prevention. These were part of the equation that I 
thought would make our streets safer.
    In creating the COPS program, I had two primary purposes in mind: 
(1) to encourage police departments to make a fundamental and critical 
shift in philosophy by embracing community policing; and (2) to deliver 
needed dollars to our police departments so they could beef up their 
forces.
    There are some things we know about crime, I said at the time. We 
know that if there are two street corners in the same city, one has a 
cop standing on the corner and one does not have a cop, the chances of 
a crime being committed where one has a cop is less than the one where 
there is not a cop. This isn't rocket science. Cops prevent crime as 
well as arrest perpetrators of crime.
    And where are we, seven years later? Seventy three thousand new 
police officers are out on patrol. Crime is down 22% from the date the 
Crime Bill was signed. The percentage of cops who are community police 
officers went from 4 to 21 percent in just the last three years.
    And one of our witnesses today, a criminologist, will testify about 
the results of the first comprehensive academic analysis of the COPS 
program and its effect on crime in America. It was a 5 year study that 
looked at 6,100 municipalities covering 145 million Americans. This 
study--being released by the University of Nebraska--found 
unequivocally that more cops on the street means ``significantly'' less 
crime.
    Specifically, the study found that for every dollar spent per 
person in a city with a population of 100,000 resulted in decrease of 
over 5 violent crimes and a decrease in almost 22 property crimes. And 
the numbers are even higher for targeted COPS grants--a drop of 13 
violent crimes and a drop in 45 property crimes.
    Is the crime drop attributable solely to COPS? Certainly not. But 
to think that this increased police presence has not made a difference 
shows a complete lack of understanding about fighting crime. Any police 
chief in the country will tell you that the best way to deter crime 
before it starts is to have a visible presence of officers in the 
community.
    You don't have to take my word for it. Let's ask police chiefs and 
sheriffs and county executives and criminologists on whether COPS has 
had an impact on the crime rate.
    But I called this hearing today for a second reason as well. This 
nation is now in a difficult time, engaged in a war against terrorism. 
And three developments have me greatly concerned about the potential to 
loose valuable ground in our struggle against crime--a fight we've been 
winning for almost a decade: (1) I am concerned that the Administration 
may propose the elimination of the COPS program for the next budget 
cycle; (2) the FBI has announced a massive, potentially permanent 
``redeployment'' of their agents away from street crime investigations, 
thereby creating an enormous ``gap'' which state and local law 
enforcement will have to fill; and (3) the economic downturn is 
squeezing localities, who will forced to cut essential services--
including law enforcement personnel. They will have trouble funding 
their existing police, let alone being able to hire new ones to ``fill 
the gap'' left by redeployed FBI agents.
    Wouldn't it be ironic if our war on terrorism unwittingly undercut 
our successful fight against crime? Yet some have--incredibly--actually 
suggested that we raid the COPS fund to pay for the war on terrorism. 
We must do both. Indeed, this is the time to spend MORE on the COPS 
program, not less. Why penalize what has worked? It is sort of like 
cutting the grass. . . .
    The time to extend COPS, with full funding, is now. I introduced a 
bill a few months ago that will send more funds out to police 
departments--enough to hire up to 50,000 more cops. It includes money 
for new technologies, so law enforcement can have access to the latest 
high-tech crime fighting equipment to keep pace with today's 
sophisticated criminals. Fifty two senators support this plan--It's 
time to take action and reauthorize COPS.
    When police officers, chiefs, sheriffs and mayors came to me seven 
years ago and asked for a program to help them grow and modernize their 
police departments, I got all of them around my conference table and 
asked them what they needed. It's time to listen to law enforcement 
again who want more flexibility in the program and more funds for 
school resource officers. My bill provides these things.
    I want to know where the Administration is on COPS. I hope the 
rumors aren't true. I hope we can make community policing a bipartisan 
issue. Sometimes I feel like my friends on the other side of the aisle 
don't like COPS because they didn't think of it. If that's the case, 
let's change the name, let's call it something else. I don't really 
care who gets the credit for this program--I just don't want to see it 
wither on the vine.
    As a famous New York City mayor put it over a half century ago: 
``there is no Democratic way or Republican way to clean the city's 
streets.'' Likewise, there is no Democratic way or Republican way to 
clear our streets of crime. COPS has a track record of success. I say 
let's stick with what works.
    With that, let me turn to Senator Grassley for any comments he may 
have.

    With that, let me turn to my colleague, Senator Grassley, 
for any opening statement he may have, and then we will go to 
our witnesses.

STATEMENT OF HON. CHARLES E. GRASSLEY, A U.S. SENATOR FROM THE 
                         STATE OF IOWA

    Senator Grassley. I thank you, Mr. Chairman, for holding 
this hearing and for my being able to serve with you as leaders 
of this Subcommittee on crime.
    I think if we look over the long haul of the COPS program 
that it has had almost unanimous support in the Congress of the 
United States. If there has been a difference between 
Republicans and Democrats, at least later on, it has been that 
Democrats tended to feel that the money ought to go more 
directly to the hiring of people as police officers. Whereas, 
Republicans have felt that maybe in this country that is so 
geographically vast and our population is so heterogeneous, 
that Washington does not always know exactly how every city, 
even its police departments, should be helped. So we would, in 
turn, have given much more discretion to State and local 
governments and whether the money would be spent on personnel 
or whether it would be spent on other things that local people 
feel are necessary for law enforcement, but the amount of money 
and the desire to help from the Federal level was backed by 
both parties.
    Before we dive too much into a discussion of the future of 
this program--and I think the future division is still going to 
be there for a great extent, as I just described it--I think we 
should take a look at the program's past performance because by 
analyzing the program's successes as well as flaws, we can 
better discuss its future.
    As I am sure representatives of law enforcement will 
testify, the COPS program has played an essential role in 
encouraging local police and sheriff departments to engage in 
community policing. It is also helpful to many communities to 
bridge the money gap until they could raise the funds to keep 
the additional officers on the payroll without Federal 
assistance. This has resulted in an increase in officers 
engaged in community policing, larger than would have occurred 
without the program.
    Having said all that, we must also look at the program's 
mistakes so that they can be corrected. The previous 
administration created the COPS program with two goals, I 
believe, that 100,000 officers would be put on the street and 
that as a result violent crime rates would go down. Although 
the COPS program did a number of good things, it did not 
entirely succeed in accomplishing these goals or, maybe in the 
case of one, even be totally responsible for that goal.
    David Muhlhausen of The Heritage Foundation Center for Data 
Analysis, who is here testifying, has consulted a study on the 
effectiveness of the COPS program. His research indicates that 
the COPS program did not single handedly cause the decrease in 
violent crimes that we now enjoy, and I think the chairman made 
inference to maybe that being not the total reason as well.
    There were many factors that played a role in the recent 
reduction of crime, not the least of which were social and 
economic. The study by Mr. Muhlhausen also shows that the 
national drop in crime began in 1991, a full 3 years before the 
COPS program had come into existence.
    When community policing is a part of a targeted approach to 
fighting crime, it can have an impact on crime. Community 
police, when deployed to areas of high-crime intensity during 
hours in which violent crimes are most likely to occur, it has 
had a significant effect on crime prevent. This type of 
targeted approach was missing from the original COPS program.
    As to the 100,000 new officers, the COPS program did not 
deliver on this promise either. An August 2000 report of the 
Office of Justice Programs, the ``National Evaluation of the 
COPS Program'' as the title, found that the program would peak 
at a maximum of 57,175 additional officers in the year 2001.
    I have concerns about two additional problems with the 
program. First, the program lacks the flexibility necessary to 
adequately meet the needs of local law enforcement, and I have 
expressed that that is a difference that has existed for 
several years between the two parties, not every member of 
every party being divided that way, but at least a major 
difference.
    Many rural localities would have benefitted, in my opinion, 
from grants for training and equipment for their current 
officers than they did from grants for brand-new officers. 
Those at the local level really do know best about what works 
in the fight against crime in their neighborhoods, and the 
Federal Government should be helping, but not necessarily 
dictating.
    Second, the COPS program suffers from a serious lack of 
oversight. The COPS office has failed to generate effective 
internal controls which could have detected abuse, misuse, and 
supplanting of COPS funds.
    I have heard from Iowa sheriffs that the only follow-up 
taken by the COPS office by grants received was a phone call 
checking to see if these offices had freed up an officer to do 
community policing. Because sheriffs for the most part are 
honorable men--I know the ones I have talked to have been--they 
tell the truth. However, they would not have been caught if 
they had lied because no one at the COPS office was 
corroborating proper application of the funds. As we now begin 
to look at the future of the COPS program, I hope the 
administration will shed some light on their plans for the 
oversight of the reformed COPS program.
    In spite of these faults with the program, it can still be 
a useful tool in forming a Federal/local partnership for 
fighting crime. The aim of the Federal grant program of that 
nature should be to assist State and local law enforcement 
agencies in carrying out their duties and responsibilities more 
efficiently and more effectively. Merely adding additional 
officer positions without the necessary equipment and training 
is futile.
    The ideal Federal assistance program should have a simple 
application process and be flexible enough to address the 
different needs of State and local departments across the 
country, including hiring, retention, education and training, 
communications equipment, computers, the purchase of safety 
equipment and firearms, and the funding of outreach programs. 
Local law enforcement knows their needs best. So the Federal 
Government should be striving to meet the needs that they have 
identified and not imposing some arbitrary program on them.
    So I look forward to working with our chairman as we review 
this program, as we consider what the administration might 
suggest, and as I am even going to consider the legislation 
that my friend, Senator Biden, has put in as a comprehensive 
approach to seeing what we should do as we move on into the 
next year.
    Thank you, Mr. Chairman.
    Chairman Biden. Thank you, Senator.
    I am pleased to welcome Viet Dihn to the Subcommittee. Mr. 
Dihn, am I pronouncing that correctly?
    Mr. Dinh. Yes, sir, it is.
    Senator Grassley. I have Senator Hatch's statement.
    Chairman Biden. Oh, please do, Senator.
    Senator Grassley. I ask unanimous consent that Senator 
Hatch has a statement to be put in the record.
    [The prepared statement of Senator Hatch follows:]

Statement of Hon. Orrin G. Hatch, A U.S. Senator from the State of Utah

    Mr. Chairman, I want to first thank you for your leadership on 
criminal law and drug policy issues over the years. I have enjoyed 
working with you and look forward to our continued partnership on so 
many issues important to our communities. I also want to commend you 
for this timely oversight of the Community Oriented Policing Services 
(COPS) program. This program was initiated in 1994 as a 6 year, $9 
billion effort with the stated goal of putting more police officers on 
the streets. I understand that you have introduced a measure designed 
to reauthorize and expand this program. I believe that before we take 
that step, it is wise for us to first appraise the effectiveness of the 
COPS program to date and determine whether we should continue in the 
direction of providing additional police officers to the local 
communities or whether different state and local governments may find 
other means of assistance more useful and effective in addressing the 
needs of their particular communities.
    Like you, I believe that a federal-state partnership to help make 
our neighborhoods safer is a wise public policy. I would also think 
that such partnership should be functioning in a way that takes into 
consideration the differing needs of states, cities, and towns that 
almost certainly have differing crime statistics, economic situations, 
and demographics, so that we can best help the communities we seek to 
benefit. We have heard concerns that while a great many states have 
received grants through the COPS program, the program may not be 
operating in the most efficient or effective manner. Furthermore, I am 
concerned that the current distribution of the grants is not being done 
on an equitable basis, and I am particularly concerned about reports 
that this year my home state of Utah has been seriously disadvantaged 
under the present system.
    Again, I want to thank you Mr. Chairman and Senator Grassley. This 
is an important hearing, and I look forward to the testimony of our 
witnesses today.

    Chairman Biden. He is the Assistant Attorney General for 
the Office of Legal Policy. He is a graduate, a magnum cum 
laude graduate, from Harvard Law School, and went on to clerk 
with Judge Lawrence Silverman of the U.S. Court of Appeals of 
the D.C. Circuit and then the U.S. Supreme Court for Justice 
Sandra Day O'Connor.
    Mr. Dihn served as associate special counsel to the Senate 
Whitewater Committee--there is a name from the past, and thank 
God I do not hear that anymore--not you, sir--and as counsel to 
Senator Pete Domenici in the impeachment trial before being 
confirmed as Assistant Attorney General for the Office of Legal 
Policy.
    Mr. Dihn was a professor of law and deputy director of 
Asian Law and Policy Studies at Georgetown University Law 
Center.
    Mr. Dihn, welcome, and please proceed in any way you would 
like.

 STATEMENT OF VIET DINH, ASSISTANT ATTORNEY GENERAL, OFFICE OF 
              LEGAL POLICY, DEPARTMENT OF JUSTICE

    Mr. Dinh. Thank you very much, Mr. Chairman, Mr. Ranking 
Member. Thank you for the opportunity to be here. It is an 
honor to be here.
    And, Mr. Chairman, you are correct that, thank God, we are 
winning both of these wars, the war against terrorism and the 
war against crime. We would not be in the position where we are 
today without your help and support, the support of Congress 
with respect to our activities in combatting terrorism and your 
support specifically, Mr. Chairman, and also with respect to 
the war on crime.
    I do not think that anybody would dispute that all of the 
measures that have been effected within the past decade did not 
contribute in some way to the current state of crime reduction 
that we have today.
    I am confident that we will continue to work together to 
provide efficient and effective resources to our men and women 
in blue in order to continue the progress of both of these 
wars.
    One thing that I have learned since coming to the 
Department is the critical role that State and local law 
enforcement authorities play in partnership with the Department 
in carrying out our joint mission of protecting freedom through 
the law. We value this partnership, but, more than that, we 
need this partnership to discharge our responsibility to 
protect America against future threats of terrorism and against 
threats of common criminals.
    I know that this Committee cares about our Federal 
Government's relationship with State and local law enforcement 
officers. The administration shares that concern and believes 
that the Department of Justice must do all that we can to 
ensure an effective partnership with State and local law 
enforcement officers and their agencies. It is because of this 
strong support that we believe it is important to provide 
resources, such as those provided through the COPS program, 
responsibly and effectively to our men and women in blue.
    Since the inception of COPS in 1994, $8.6 billion has been 
used through COPS grants to add officers to our streets, 
enhance technologies, support crime prevention, and advance 
community policing. All of these efforts have been undertaken 
with the objective of creating and maintaining an effective 
partnership with State and local law enforcement. Like you, the 
Department recognizes the benefits to be derived from a Federal 
partnership with local law enforcement and strongly advocates 
community policing.
    It is not enough, however, simply to put a dollar amount or 
a certain number of officers on the street. Rather, the 
challenge is to provide resources to State and local law 
enforcement agencies in a fiscally responsible way, so as to 
address the most pressing needs of law enforcement and to 
maximize the results. This is our overriding objective for the 
COPS program.
    As you know, the President, through his budget proposals, 
has indicated a shift of funding priorities from the previous 
administration for COPS. This shift is one away from federally 
funded hiring of officers and toward the provision of adequate 
equipment and technology to State and local law enforcement 
agencies, which agencies consistently cite technology as one of 
their most critical needs, but let me repeat, the objective 
remains the same. We want to create, maintain, and cement an 
effective partnership with State and local law enforcement 
through programs like COPS.
    Particularly, in this new war on terrorism, it has been 
demonstrated that having up-to-date technology is crucial for 
the successful investigation and sharing information that is 
desperately needed among law enforcement agencies at all 
levels.
    Technology is the key to successful law enforcement, and 
the proper equipment enhances the efficiency, effectiveness, 
and, most importantly, from my and the Department's 
perspective, the safety of officers on the streets.
    Consistent with the goals of COPS, the provision of 
technologies that offer police departments more efficiency 
leads to officers spending more time away from their desk or at 
the station house and actually being on the street.
    We seek to shift resources to provide the flexibility to 
police departments that was missing in the initial hiring 
grants available through COPS in this funding priority shift.
    In addition to the clear need to shift our resources to 
where they will be most useful, I must be honest and 
acknowledge that the grants provided through COPS for hiring 
additional officers have not been as effective as we had hoped 
and, indeed, have been difficult to monitor, as the Ranking 
Member has highlighted. The COPS program has provided 
significant resources in the past, but with well-documented 
flaws that were identified, for example, in the 1999 Inspector 
General's audit report of COPS and also earlier in the GAO 
report.
    The President and the Department do not believe anyone 
supports the use of COPS dollars for inappropriate activities. 
While such abuses have occurred in a very small fraction of the 
total COPS grants awarded, the Department and COPS office are, 
and have been, striving to prevent future abuses. Our focus is 
to improve these programs, to support community policing. We 
are committed to making COPS a more effective grant-making 
organization.
    As new problems confront law enforcement in our country, 
COPS will be an intricate part of combatting these problems. 
The Department remains committed to community policing and 
looks forward to continued success in our fight against crime, 
a fight in which COPS is clearly a part.
    As you know, the Attorney General designated Mr. Carl Peed 
to head the COPS office earlier this year, in early September I 
believe, and he has a strong background in State and local law 
enforcement. We think that Mr. Peed will bring the right 
emphasis to the program, and I have previously submitted a more 
lengthy written statement which I ask to be submitted to the 
record, but in the interest of time, I will be happy to answer 
any questions you may have.
    [The prepared statement of Mr. Dinh follows.]

 Statement of Viet Dinh, Assistant Attorney General for Legal Policy, 
                         Department of Justice

    Mr. Chairman and Members of the Committee,
    Thank you for the opportunity to appear before you. It is an honor. 
Chairman Biden, the Administration and the Department acknowledge and 
appreciate your continued friendship with and support of state and 
local law enforcement. We value your efforts in this area. The 
Department was pleased to work with you, and to support, your amendment 
to S. 1, the Better Education for Students and Teachers Act, which 
reauthorized school resource officers as part of the COPS Program I am 
confident that we will continue to work together to provide efficient 
and effective resources to our men and women in blue.
    One thing I have learned since coming to the Department is the 
critical role state and local law enforcement authorities play in 
partnership with the Department in carrying out our joint mission of 
protecting freedom through law. The bonds of this partnership have been 
strengthened in our common endeavor to protect the safety and security 
of Americans against the current threat of terror. In this war, the 
Department depends on the 18,000 state and local police agencies to 
help us prevent future attacks. We value this partnership, but more 
than that, we need this partnership to fully discharge our 
responsibility to protect America against future threats. The COPS 
office is one very tangible way the Department has maintained its 
partnership with state and local law enforcement agencies by assisting 
those agencies in their policing efforts.
    I know that you have scheduled this hearing because the members of 
this Committee care about our federal government's relationship with 
state and local law enforcement officers. The President and the 
Attorney General share that concern and believe that the Department of 
Justice must do all it can to ensure an effective partnership with the 
state and local law enforcement officers who protect us on the front 
lines within the United States. It is because of the Department's 
strong support for the men and women in blue that we believe it is 
important to provide resources, such as those provided through the COPS 
program, responsibly and efficiently.
    Since the inception of COPS in 1994, $8.6 billion has been used 
through COPS grants to add officers to our streets, enhance technology, 
support crime prevention, and advance community policing. All of these 
efforts have been undertaken with the objective of creating and 
maintaining an effective partnership with state and local law 
enforcement. Like you, the Department recognizes the benefits to be 
derived from a federal partnership with local law enforcement, and 
strongly advocates community policing. Community policing disrupts, 
displaces and ultimately prevents street crime. The Department and the 
Administration are committed to a beneficial local/federal law 
enforcement partnership, but it is not enough to simply put a dollar 
amount or a certain number of officers on the street as evidence of our 
commitment. Rather, the challenge is to provide resources to state and 
local law enforcement in a fiscally responsible way so as to address 
the most pressing needs of law enforcement and to maximize the results. 
This requires a willingness to improve grant programs like those 
provided through COPS, to ensure that limited funds are well spent and 
provided in the most effective and useful way to those local agencies 
that need assistance.
    The President, through his budget proposals, has indicated a shift 
of priorities from the previous Administration. This shift is one away 
from federally funded hiring of officers and toward the provision of 
adequate equipment and technology to state and local law enforcement 
agencies which often go without necessary law enforcement technology. 
In fact, law enforcement agencies consistently cite technology as one 
of their most critical needs. Particularly in this new war on 
terrorism, it has been demonstrated that having up-to-date technology 
is crucial for successful investigations and for the information 
sharing that is desperately needed among law enforcement agencies at 
all levels. The partnership between the Department of Justice and state 
and local law enforcement is of the highest importance in our war on 
terrorism, in which these local officers are on the front lines every 
day. We rely on state and local agencies and thus, must be committed to 
using our resources in the most efficient manner to support them. 
Technology is the key to successful law enforcement.
    In addition, investigations require current equipment and 
technologies, comparable to the very equipment and technologies to 
which terrorists and other criminals have access. Information sharing 
among law enforcement agencies is incomplete if agencies lack the 
'necessary equipment and technology to record, store, and retrieve such 
information. For example, state and local law enforcement agencies must 
have adequate equipment to fully use existing federal resources such as 
RISS, the Regional Information Sharing System. And, consistent with the 
goals of COPS, the provision of technologies that offer police 
departments more efficiency leads to officers spending more time on the 
streets and less time in the office. Unfortunately, recent 
appropriations for COPS have extensively earmarked our technology 
assistance funds, removing much of our flexibility for working with 
state and local law enforcement agencies.
    Although this shift from hiring to technology was made prior to 
September 11<SUP>th</SUP>, the events of that day only reinforce the 
need for this shift in priorities. .Having already well exceeded the 
previous Administration's goal of funding an additional 100,000 
officers on the street, we need not set new artificial goals in terms 
of the number of officers. Instead, we seek to shift resources while 
retaining the availability of hiring grants that will provide the 
flexibility to police departments that was missing in the initial 
hiring grants available through COPS. I also would like to note that 
COPS continues to pursue a strong training and technical assistance 
program in support of community policing.
    In addition to the clear need to shift our resources to where they 
will be most useful, it must also be recognized that the grants 
provided through COPS for hiring additional officers have not been as 
effective as hoped, and have indeed been difficult to monitor. The COPS 
program has provided significant resources in the past, but with well-
documented flaws that were identified in the 1999 Inspector Generals 
Audit Report of COPS. The President and the Department do not believe 
anyone supports continued use of COPS dollars for inappropriate 
activities. While such abuses have occurred in a very small fraction of 
the total COPS grants awarded, the Department and the COPS Office are 
striving to prevent any future abuses. Our focus is to improve these 
programs to support the community policing purpose of COPS. We are 
committed to making COPS a more effective grant-making organization.
    It should be recognized that the grants provided through COPS have 
been difficult to monitor. However, in response to the critical report 
issued by the Inspector General, the COPS Office has implemented a 
comprehensive and multi-faceted approach to monitor more than 32,700 
grants. This approach includes annual progress reports submitted by 
grantees and more intensive monitoring of high-risk grantees, including 
Inspector General audits of those grantees. The COPS Office thoroughly 
investigates all allegations of grant misuse which come to their 
attention through the media, citizen complaints, union or officer 
complaints and grantees themselves. The Office also conducts site 
visits and desk reviews. By focusing grant funds on local law 
enforcement needs and monitoring grants after they have been awarded, 
the Department believes the COPS program will be able to provide even 
better support to local law enforcement agencies.
    Just as we are accountable to this Committee and the American 
people for the responsible administration of COPS, we must demand that 
these grant programs be accountable to the men and women in blue, whom 
these programs are intended to support. The Department seeks to improve 
the COPS grant programs by making them more user friendly, effective, 
and accountable for any failings. We want to see progress as a result 
of the dollars spent and we need to see police departments provided the 
resources they actually need. In short, the Department is committed to 
improving the COPS Program, not maintaining the status quo.
    When the Attorney General appointed Carl Peed as the Director of 
COPS, he clearly demonstrated his commitment to the COPS program as 
part of a larger commitment to responsibly providing assistance to 
police departments. This is a commitment the President shares 
wholeheartedly. Carl Peed has been involved in state and local law 
enforcement for nearly 30 years and brings with him the experience and 
perspective necessary to provide law enforcement agencies with the best 
resources. The Department has complete confidence in Director Peed's 
ability to carry out these policies through effective and flexible 
programs.
    As new problems confront law enforcement in our country, COPS will 
be an intricate part of combating these problems. The Department 
remains committed to community policing and looks forward to continued 
success in our fight against crime, a fight in which COPS is clearly a 
part.
    Again, I thank you for the opportunity to be here today and would 
be happy to answer any questions.

    Chairman Biden. Without objection, the entire statement 
will be placed in the record. Thank you for your testimony.
    Let me ask you. Are you talking about spending the same 
amount of total dollars, just allocating them differently to 
local law enforcement?
    Mr. Dinh. As you know, Mr. Chairman, the President's budget 
request in fiscal year 02 differ from that which Congress 
appropriated to the COPS program in fiscal year 02. So there 
are two sets of different numbers from which your question may 
be derived upon.
    At this point, we are still in the budgeting process within 
the executive branch, and we still continue conversations 
between the Department of Justice and the Office of Management 
and Budget. The discussions are sufficiently preliminary or not 
sufficiently final that I am not confident enough to give you a 
definitive answer to that question.
    Chairman Biden. Thank you. Now, in light of your--
    Senator Grassley. Well, you ought to be able to tell us 
what the Department has requested of the Office of Management 
and Budget for the program. You may be negotiating with them on 
a final figure, but what are you requesting compared to, well, 
along the lines of his question?
    Mr. Dinh. I think my answer will have to be the same. The 
process is continuing. We are formally in those numbers in a 
joint effort, and it would not be appropriate for me to--
    Senator Grassley. So you were told not to tell us.
    Mr. Dinh. Like any--
    Chairman Biden. In other words, it is less.
    Mr. Dinh. No. Like any deliberations within the executive 
branch, even on budgeting issues, I think we would like to have 
those deliberations in a concerted manner before we present 
them to you or to the public.
    Chairman Biden. I thank you for your try, Senator.
    Since I left the chairmanship of this full Committee, I 
have been chairman of the Foreign Relations Committee. Are you 
sure you are not with the State Department? It sounds like a 
State Department answer. I am used to the cops being straight, 
not that you are not straight, but I mean in giving very frank 
answers.
    So my first question is, A, are you going to spend as many 
total dollars and we are going to find that out, B, you are 
going to change the nature of your assistance to local law 
enforcement, and you are putting great emphasis on technology 
and supporting community policing both. Correct?
    Mr. Dinh. We are supporting community policing, yes, and 
police agencies through a myriad of programs, but specifically 
for COPS, we are putting our emphasis on providing technologies 
to the police agencies consistent with the fiscal year 02 
budget request that the President sent up.
    Chairman Biden. Are there any of the programs that you 
would, if you are able to or so inclined, list as Federal 
assistance to local enforcement? Are there any of those 
programs that, in fact, condition their support on the 
maintenance of a community policing operation at the local 
level?
    Mr. Dinh. I do not know the specifics of the condition in 
authorizing language of the specific programs, but let me make 
it clear. We believe in community policing. I, myself, believe 
in community policing, and we will do everything through the 
COPS program and through other programs of the Department of 
Justice to not only help State and local law enforcement 
agencies, but to press as much as possible to support community 
policing. Whether or not it is through a conditionality of 
funding or through other proactive efforts, I cannot speak to 
in specific.
    Chairman Biden. Are you aware that community policing costs 
the locality more money than when they do not have community 
policing? Are you aware of that?
    Mr. Dinh. No, sir, I am not.
    Chairman Biden. I assure you, it is true, and the reason it 
is true is you have to take police and put them out on the 
street. It requires you to cover more territory in addition to 
covering what you have in-house.
    The reason, I might add, if you would take a piece of 
unsolicited advice or information--
    Mr. Dinh. I am taking notes, sir.
    Chairman Biden. The reason why I wrote the community 
policing requirement into the law, as many of the chiefs here 
will tell you, sheriffs and executives will tell you, local 
police agencies did not want to go to community policing, and 
the reason they did not want to go to community policing was, 
first of all, it was a method that was still being debated. I 
am not trying to be solicitous. Not everyone was where Colonel 
Gordon was at the time, who had already moved that way. A lot 
of folks thought it is not the best way, that you do not get 
the biggest bang for the buck by having community policing.
    But, secondly, it costs more money to do it, and it 
required more people. So what I found was unless we tied in the 
requirement that in order to get a cop, your whole department 
has to be into community policing, we would have never 
transformed the country as radically as the police agencies did 
by going from, I think, 2 or 3 or 4 percent of all police 
departments in the Nation being in community policing to a 
multiple of 10 to 12 times that greater impact, and that is the 
reason we did it, but I am sure in your deliberations you will 
take a look at that and make that judgment on your own.
    A third question I have, and not attempting to be 
confrontational here, if you give direct grants to the mayors, 
county executives, governors, local officials for technology 
alone and not the police hiring part of it, do you believe or 
have any reason to believe that they will maintain the size of 
their police forces as they exist?
    Mr. Dinh. Senator, that is a very good question, and I 
thank you also for your advice and observation. The two, I 
think, go hand in hand.
    I think it is undoubted that more police officers on the 
street deter more crime, and, therefore, it would have a lessen 
of social cost to the local communities and our overall 
society.
    Where we sit right now at this stage is that, having met 
the funding priorities of putting the targeted numbers of 
police positions and officer positions on the street, how then 
do we best get the bang for our buck in this investment? Do we 
try to give the police officers the tools that they need now 
that they are on the street in order to increase their 
efficiency, effectiveness, and their safety, or do we continue 
funding more officers? That is the core of our deliberations. 
These are the conversations and the consultations that this 
process is in.
    With respect to the maintenance of the strength in force of 
existing State and local agencies, I know that maintenance of 
the officer positions, those funded by the COPS program was a 
subject that is of inquiry and interest to the GAO report and 
also to the Inspector General. I do not have any definitive 
conclusions as to where we are on that as a sociological and 
management matter for the State and local agencies, but I can 
say this. Whatever happens to the grants or additional grants 
or no grants in the future, those that are in the pipeline, 
that is, those that have been granted, will not be affected. 
The officer positions that are currently being funded by COPS 
are based on grants that have 3-year commitments, except, of 
course, of the MORE program, 3-year commitments which 
commitments were funded at the year of the award. So whatever 
transition there may be, existing officer positions will not be 
affected in that transition.
    Chairman Biden. Are you aware of--and this is not an exam 
here.
    Mr. Dinh. Thank you, sir.
    Chairman Biden. Obviously, from your resume, you do 
incredibly well on exams. Are you aware of the number of 
requests that have come in from localities this year that 
have--
    Mr. Dinh. Yes, sir. I am. We have outstanding 
solicitations, not specifically for fiscal year 02, but for the 
COPS in School program, we have 1,191 pending applications for 
the universal hiring program. We have 1,950 pending 
applications and approximately 2,000 departments on a COPS 
waiting list should we come out with another solicitation in 
fiscal year 02, and we have 1,220 pending applications in the 
MORE program. Based upon the availability of funds and the 
pending applications, we may come out with a further 
solicitation for fiscal year 02 in COPS.
    Chairman Biden. Lastly, since my time is up in this round, 
if, in fact, the increase in monies for technology resulted--if 
it did--resulted in fewer total number of police officers on 
the street locally, would you consider your program a success, 
or does it need to be--you made the statement, your objective 
now--I might note, parenthetically, my COPS-2 bill provides for 
over a third of a billion dollars for technology assistance, 
but direct technology assistance, and $600 million for COPS 
allows them to maintain existing cops. It provides the 
flexibility to take the cops they already have on under the 
COPS program and extend the men overtime hours, but that is a 
different issue.
    You indicated that cops on the street matter, and now you 
want to give them the tools, additional, more modern tools to 
deal with crime on the street, the technology grants. Would 
your purpose be met if there were a significant reduction in 
the total number of cops on the street, not withstanding the 
fact that you had technology grants?
    Mr. Dinh. Sir, that is a great hypothetical, and I take it 
in the spirit that this is not an exam, but your question--
    Chairman Biden. With the permission of my colleague, if I 
can go over just a minute, I really am not playing a game with 
you. Maybe I have been here too long. I got here in 1973 as a 
local official who had moved to vastly expand the police 
department in the jurisdiction which I was a local official, 
the county. We had a thing called the LEAA program, which 
sounds vaguely similar to your philosophy, which was lets give 
the local guys what they need and what they say they need, and 
since we do not know what it is, we will do that.
    Secondly, we said we had a lot of programs that when I 
became a Senator that I helped pass and draft that gave money 
to governors and mayors for law enforcement purposes, and we 
found two things. I think knowing how schooled you are on the 
academic side of this question, you will go back and be able to 
check it out. Two things happened. We found with the additional 
monies prior to 1994 we gave for law enforcement, local 
officials decided that it was a lot easier to hire, with 
Federal money, public defenders and pay for judges' salaries 
with the money and not hire cops because they did not want to 
be responsible for hiring public defenders because they knew 
they were susceptible to criticism. ``You took my tax dollar. 
The guy I am running against took my tax dollar and hired those 
public defenders to hire to defend those criminals.'' So they 
took the Federal money that was meant for COPS, and they hired 
public defenders. They took the Federal money that was intended 
for COPS, and they made--it was law enforcement-related--put up 
traffic lights. They did everything but hire cops because, 
guess what, county executives mostly, governors mostly, and 
mayors mostly are just like CEOs. They do not want to hire 
people because when they hire people they have to pay pensions. 
They have other costs that are attached to it. So, when you 
give them money, guess what? They will do everything but what 
the money was intended for, to hire cops.
    If you go back and look at the criticism in the LEAA 
program, the criticism was it was not spent, and I was a local 
official in with this. We used to sit in a county council 
meeting. My colleague will appreciate this. We used to have an 
executive meeting where, before the open meeting, the 
councilmen would all sit down in a room and go over the agenda, 
and the president of the council would say, ``Well, we have 
this new program,'' and I would say, as a 27-year-old kid, 
``Well, how much will it cost?'' The following response would 
come, and it was a Republican county executive. It would have 
come from a Democratic county executive, the following phrase, 
and you have heard it in your earlier career, ``Oh, it is 
Federal money.''
    Senator Grassley. Yes, it is free.
    Chairman Biden. It is free. Seriously, it is not a joke. It 
is Federal money.
    And do you know what we found out with the LEAA program 
when we gave the local officials total discretion on meeting 
their needs? They laid off in my community 10 or 12 percent of 
the local fire department, 10 or 12 percent of the local police 
department, and then they took the Federal money for COPS and 
rehired those people with the Federal dollars. They went back 
to their constituents and said, ``We did not raise your taxes. 
Those big spenders in Washington did, and by the way, we have 
not reduced your services,'' but they did not add a single cop, 
did not put one additional uniform on the street in many of 
these locations. So I hope when you are looking at this, you 
will look at the record.
    I will end by saying there was one of my favorite poets, 
who you may like as well, actually more of an essayist, Ralph 
Waldo Emerson. He once said, ``Society is like a wave. The wave 
moves on, but the particles remain the same.'' I promise you, 
you give total flexibility, I am willing to bet you my career 
there will be significantly fewer people with a badge working 
for local officials in the United States of America.
    At any rate, having said that, let me yield to my 
colleague.
    Senator Grassley. My response to that was the first 
sentence of my opening statement.
    Chairman Biden. I know that.
    Senator Grassley. So I will not respond further.
    I want to make an assertion and then ask you if it is 
valid. It seems to me that setting up the COPS office under the 
purview of the Office of Justice Programs would have been 
logical and consistent with other grant programs administered 
by the Justice Department to aid State and local law 
enforcement agencies. It would have eliminated duplicative 
bureaucracy and made more sense in terms of accountability and 
information-sharing, shielding the COPS office from OJP 
oversight and establish administer procedures and policies, 
make it appear that the office functions at the pleasure of the 
Deputy Attorney General and the administration without 
traditional program accountability. And you heard in my opening 
statement my concern about accountability.
    Mr. Dinh. Senator, thank you. I cannot answer that question 
with a simple yes or no. If you permit me one or two sentences, 
you know the 1994 Crime Act gave the Attorney General the 
flexibility of using existing components or establishing new 
components in order to house the COPS program. The Attorney 
General chose to establish a freestanding office, the COPS 
office, that is outside of the Office of Justice Programs and 
outside the purview of Deborah Daniels, the Assistant Attorney 
General for Justice Programs.
    I think that reflects the priority that the community 
policing had in the previous administration, a priority that 
obviously as I in my statement said we shared. So keeping it a 
freestanding office outside of the Office of Justice Programs 
has that symbolic and some other practical effects of 
maintaining an autonomous, if you will, semi-autonomous program 
from the Office of Justice Programs.
    By the same token, by your premise, I think everyone 
recognizes that the COPS program and the Office of Justice 
Programs served many of the same functions of grant-making. For 
example, actually, the two offices shared a joint financial 
system for disbursement of the grants, and some of the line 
items that go under community-oriented policing services are 
actually administered by the Office of Justice Programs. So 
there is an operational recognition that the overlap can be 
eliminated with the Office of Justice Programs.
    With respect to where we go from there, because I expect 
that will be your next question, if not the chairman's next 
question--
    Senator Grassley. That is my next question.
    Mr. Dinh. Where we go from there--
    Senator Grassley. I hope you would agree that whether you 
have a separate program, a new one established, or use OJP, you 
still got the same American tax dollars, and we ought to have 
the same certainty of accountability.
    Mr. Dinh. No question, Senator, and this goes back to 
answering the chairman's last remarks regarding accountability. 
That is the overriding objective of our reorganization plan, 
the Department of Justice reorganization plan, and our 5-year 
strategic management plan that the Attorney General unveiled on 
November 8th, and that is to make the grant-making programs 
more accountable and to direct the monies where they are best 
used and to make the money count and work toward our 
objectives. So, wherever they are, they will have to be subject 
to the same level of accountability. The accountability within 
the OJP program may make some more sense. The autonomy of the 
program for operational reasons may also make sense. These are 
the questions that we are evaluating as we finalize the 
Attorney General's reorganization plan pursuant to his 
strategic management plan that we announced on November 8th.
    Senator Grassley. Well, then following along in the same 
vein, and this will be my last question, but it is a little 
more specific, I refer to the Office of Inspector General's 
July 1999 report called ``Management and Administration of the 
Community Oriented Policing Services Grant Program.'' The 
Inspector General gave several examples of instances where 
recipients of COPS grants engaged in supplanting. You know what 
that is.
    The report includes examples of how grant recipients would 
engage in supplanting such as, one, when a department with a 
vacant position at the start of a grant period or at any time 
thereafter hires no new officers other than COPS grant-funded 
hires or, two, when no timely hiring other than COPS grant-
funded hiring is done by the department to replace vacancies 
created by attrition existing at or beginning at the--or after 
the beginning of the grant program and, lastly, when the grant 
funds are used to replace or to allow the reallocation of funds 
already committed in the local budget for law enforcement 
purposes.
    So what actions have been taken or what do you anticipate 
taking to address these problems, and what further 
accountability measures will the COPS office be implementing to 
prevent abuses like this, if you consider them abuses? And I 
do, at least to the intent of the law.
    Mr. Dinh. Yes, sir, they are abuses because they are in 
contravention of the original mandate of the 1994 act which 
requires that COPS grants be used to augment and not to replace 
existing personnel. So we take those obligations very seriously 
at the Department to follow the letter and the spirit of the 
law, but, more importantly, just as a good management and good 
housekeeping matter, we want to know that the money that we 
send out in our grant program actually goes to the objective 
that we set up for that grant program.
    After the 1999 report, I understand that the COPS program 
instituted a number of review procedures that I have outlined 
in more specific details in my opening statement. I think they 
are a first good step, but as I said, we are looking at not 
just the COPS program, but all of our grant-making programs 
with the overriding goal of meeting one of the key objectives, 
one of the eight objectives of the strategic management plan, 
which is to ensure that our grant-making programs are efficient 
and effective in carrying out the objectives of the grants as 
set forth by the Congress and as envisioned by the 
administration where there is discretion.
    Senator Grassley. I thank you very much.
    Mr. Chairman, I am going to leave because I have got to go 
to a meeting of the stimulus package conference.
    Chairman Biden. I would like you to take care of that so we 
can have a Christmas. If you would go ahead and do that, I 
would appreciate it. I appreciate the chairman of the Finance 
Committee--the Ranking Member now of the Finance Committee has 
probably the fullest plate of anybody here, and I appreciate 
you being here.
    As my friend is packing up to leave to take care of the 
stimulus package, I would say if he thinks he has seen 
supplanting now, he ain't seen nothing yet. If you go over the 
COPS program without it mandated by law to be spent on cops, 
you ain't seen nothing yet.
    I will submit for the record, without taking the time of 
the Committee, what I believe to be the legitimate critique of 
the GAO report in terms of their criticism of the COPS program, 
which I think has been taken out of context.
    Now let me ask you a question, and maybe my problem has 
been I have been hanging around cops so long now, I am 
beginning to think like one, I think.
    Mr. Dinh. That is not a problem. It is a bonus.
    Chairman Biden. Well, it is a problem in the sense that I 
think the difference between--maybe not the difference. I 
think--well, let me just speak for myself, and I am being 
serious. I think I think like a cop in the sense that they look 
through all of the regulations and all of the minutia of what 
we tell them and all of the theory, and they want to know--and 
they do know from their experience--certain practical things 
that work.
    For example, if you do not have the COPS program sitting 
out there separately, it ain't going to get the same attention. 
They know if you are hired by the chief to be his or her 
primary assistant and you get an office in another building, 
you may have the title, but you ain't going to have any impact. 
They know the person who is most going to impact on what their 
decisions are as the person who is in the office next door 
because that is the way crises work. A crisis works and you 
turn and say, ``Charlie, what do you think,'' and if Charlie is 
two buildings away. They could make good State Department 
people. That is why they know National Security Advisors tend 
to become more influential with Presidents than Secretaries of 
State because they are in a different building, because that is 
not the way human nature works. Human nature works, you deal 
with the crisis at the moment. At that second, you turn to the 
person who is there, and that is how they think and I think 
they are right.
    The reason I say that, that is the reason we modeled this 
COPS program the way we did, and when I say ``we''--I do not 
want to blame anybody else--me and the cops. The reason we did 
is we found out that where you are in line, where you sit 
determines what you get. This is the first program ever that I 
am aware of, you could apply directly as a cop. The department 
could apply. You got to get signed off by your immediate boss, 
but it does not have to go through the State legislature. It 
does not have to go through anybody. It does not go to the 
Governor. It can go as a one-page application, bang, you are 
getting the deal.
    So one of the questions I have for you relates to the 
redeployment issue, and I will let you go after this question.
    This morning's Washington Post ran an interesting article 
entitled the ``FBI's Focus on Terrorism Sidelines Other 
Categories of Crime.'' It notes that with thousands of FBI 
agents concentrating on terrorism, the FBI's field offices have 
put aside a wide array of other matters such as undercover drug 
investigations, pursuit of nonviolent fugitives, and the mix of 
cases involving white-collar crime. The Post notes, ``The FBI 
has been forced to rely on State and local police departments 
and other Federal law enforcement agencies to fill the gaps 
creates by the massive redeployment of FBI agents after the 
September 11th terrorist attack in New York City and 
Washington. FBI agents and Federal prosecutors said that the 
FBI continues to transform itself into more of a counter-
terrorism organization. Those agencies, i.e., State and local 
departments, will be asked to take on added responsibilities 
for drug enforcement and investigations of street crime. 
Moreover, Director Mueller has acknowledged this shift in 
focus. Just this week, he stated that some non-terror cases 
have been set aside, and the Bureau will decide soon whether to 
permanently pass off investigations to State and locals, 
including drug probes, bank robberies, and other forms of 
street crime, the very ones which State and local will be 
called upon to handle. Director Mueller stated, 'Are there 
areas where we will be doing less, and if so, who will take up 
the slack? When you don't do something, you have to fill the 
gap.' Filling the gap''--and this is a very new reality--
``Filling the gap left by redeployment of Federal agents on the 
war on terrorism is going to be filled by local law enforcement 
officials.''
    So that we will, I am confident, fight over--in my view, it 
will be the most important fight I engage in next year--whether 
or not we have a COPS program and how big it is and whether it 
is cut, but we are also going to have a fight over--hopefully, 
we will not have a fight over it--total allocation of 
resources.
    Does the Department acknowledge that if we did not change a 
single thing other than the redeployment of FBI agents away 
from street crimes that there is going to be more of a burden 
placed upon local law enforcement agencies next year than there 
was last year?
    Mr. Dinh. Mr. Chairman, short answer, yes, but let me 
amplify that in one sentence. We all know that September 11th 
was a wake-up call to America and law enforcement agencies, 
Federal, State, and local, have bore the brunt of the burden of 
that response. The FBI, as you noted, and the entire Department 
of Justice has shifted its priority to where our overriding 
objective now is to prevent and disrupt terrorist activities, 
so that the threat of a same catastrophic event will not happen 
again.
    Our partners in State and local government have been 
essential in this fight. We have a force multiplier of 18,000 
State and local agencies that we have called upon during this 
fight, and they have answered that call very, very quickly and 
very valiantly and very usefully. We will continue to call upon 
them in the fight against terrorism.
    At the same time, we recognize that, obviously, resources 
are limited, but crime does not stop. So we will be focusing 
these efforts at working with our State and local partners, 
talking with the men and women in blue through organizations 
like the Fraternal Order of Police so that we can continue to 
not only redeploy our cases, but also redeploy the resources to 
where they are most needed in order to jointly fight crime and 
fight terrorism.
    Chairman Biden. Well, I hope--and I know you cannot 
answer--you can, you are capable of, but you are not in the 
position to be able to answer some of these questions. I hope 
your Department will have made, and has made, a study of the 
additional cost, out-of-pocket cost to local budgets of 
assisting you and me at the Federal level in that fight on 
terrorism, just that alone, nothing else, not even picking up 
the additional street crime requirements that they are going to 
have to pick up, just the mere cost in overtime, not just in 
New York City and Los Angeles and Houston. Every time, God 
bless him, the Attorney General comes out with an unspecific 
alert and it is debatable and arguable whether it should or 
should not be done--and I recognize there is not clear-cut 
answer, but every time that happens, our police departments all 
across the country go on overtime. They go on alert. More 
people stay out. It drains the budgets.
    Now, they are not complaining. They are not saying we are 
not Americans and we should not do that, but I sure hope that 
you all recognize when you are doing your total calculation 
here that they are going into debt. With the economy changing 
as drastically as it is, unemployment increasing, lower tax 
revenues forecasted, they are in addition being asked to pick 
up, which they are willing to do, a Federal responsibility--a 
Federal responsibility--at the very time, it seems to me--
    My mom has an expression, God love her. When I would say, 
``Can I go down and hang out''--I came from a little town 
called Claymont--``down on the corner by Buffington's with the 
guys?,'' she would say, ``No. You are going to get in trouble 
down there. Those guys are trouble.'' I said, ``Mom, I will not 
get into trouble,'' and she said, ``Joey, if it looks like a 
duck and it quacks like a duck and it walks like a duck, it is 
probably a duck.'' I kind of new what she meant. It did not 
matter whether I got in trouble or not. If I was standing down 
on the corner with the guys getting in trouble, I would be 
perceived to be in trouble. So, when the cops ousted us, I 
would be with them. It would not matter.
    Well, I may be wrong, but I think I see a duck in you guys, 
a duck in administrative clothing which says that, ``Hey, we 
really want to help these guys, but, you know, I cannot tell 
you whether we are going to have a total amount of more money 
for law enforcement for them.'' I am willing to bet you your 
job and mine, my job versus yours--and I am up for reelection--
I will bet you somehow you come out with the total number to 
assist local enforcement that is less than the total number for 
last year. I will make you a bet. I will make you a bet. And if 
that is true, it kind of looks like a duck to me because they 
are already hurting, their budgets are being crunched. They are 
being asked to do now Federal requirements. They have 
jurisdiction to do them, but they are basically a Federal 
responsibility like street crime is basically a local 
responsibility. Terrorism is basically a Federal 
responsibility. Less input in drug efforts, less input on a lot 
of things, and then I am going to be very interested to see 
whether you come along and say we recognize that.
    So, even though we are jiggering this COPS program, which I 
hope you do not do, but I know you will, instead of spending 
one dollar next year like we did last year, we are going to 
spend $1.47 because we realize the added expense. My guess is 
you are going to spend 87 cents, but I hope I am wrong. I am 
sure we will get a chance to have this again once the review is 
done, and I invite you to make any closing comments you would 
like to make because I do not want to end it by my having 
painted a picture that you might not want to be associated 
with.
    Mr. Dinh. No, sir. I do appreciate the fact that we all 
recognize that we are living in a world of limited resources, 
and resources have been much more limited since March of this 
year--or actually since last week when everybody says we have 
been in recession since March of this year. So I think that the 
question as to how we deploy those resources will be a critical 
one as we go through this budgeting process and also the manner 
through which we assist our State and local partners will be 
one that we are currently deliberating and I am sure we will 
have a chance to visit again on that matter.
    One thing I would like to say is to thank you for your 
continuing leadership in these matters and in the fight against 
terrorism, and we look forward to working with you in this 
process and in the future.
    Chairman Biden. Well, I look forward to working with you, 
and I know these are going to be hard calls. That is why I am 
not pressing you too hard today, but as your colleagues--on the 
political side of this equation in the Justice Department, that 
is good, not bad. I am not being critical about that--make the 
case to you that we should spend less, remind them that these 
are the guys who spend a whole life talking about unfunded 
mandates. We basically have, necessarily, an unfunded mandate 
going on out there, and that is, everyone from the New Castle 
County Police Department to the State Police, of the sheriffs 
in Virginia to the State police in Montana, we are saying to 
them help us fight terrorism, help us deal with borders, help 
us deal with a thousand other things, which are Federal 
responsibilities. I hope we recognize we have to help them out.
    At any rate, thank you very much. I appreciate it. I will 
submit some questions in writing, with your permission, in the 
next week or two, and if you are able to respond, I would 
appreciate it.
    Mr. Dinh. Thank you, sir. I will do it before Christmas.
    Chairman Biden. Thanks an awful lot. I do not want to slow 
up. If you do not have them done by Christmas, wait until New 
Year's. I do not want to ruin your Christmas.
    Mr. Dinh. Thank you.
    Chairman Biden. Thank you very much.
    The next panel are a group of very distinguished local 
officials who have had some national reach. The first is, I 
have to admit to you, one of my good friends and closest 
allies, but, most importantly, a close personal friend for over 
30 years, Thomas P. Gordon, the County Executive of New Castle 
County in the State of Delaware.
    Tom, why don't you come up and sit in the middle there or 
wherever they put your name down.
    Tom spent more than two decades in New Castle County Police 
Department, including 7 years as chief. He brought it through a 
transition period that was literally astounding. It is 
recognized as--and I realize I am parochial--one of the finest 
police agencies in the country and clearly one of the finest 
county police agencies in the country. During his tenure as 
police chief, he made New Castle County Police Department into 
this nationally recognized model for community policing.
    By my count, New Castle County has received over 60 
officers through the COPS program, and crime is down by one-
third since 1996 in the county, thanks much to the tutelage of 
their then-chief who was then handed over to a woman sitting 
behind the county executive who succeeded him as chief of that 
department and continued the same exact tenure with the same 
results.
    Next, we will hear from Colonel Lonnie Westphal, chief of 
the Colorado State Patrol. Colonel Westphal is the fifth vice 
president of the International Association of Chiefs of Police. 
I am told your president is currently a night law student. I 
wish him the best of law in his exams, which I understand 
precluded his attendance here today.
    Colonel Westphal became chief of the Colorado State Police 
in 1995. He holds a master of arts degree in public 
administration at the University of Denver and is a graduate of 
both the National Executive Institute of the FBI and the John 
F. Kennedy School of Government for Senior Executives at 
Harvard. I thank you for being with us this afternoon.
    Steve Young is the president of the Fraternal Order of 
Police. The FOP is the largest law enforcement union in the 
Nation, with more than 299,000 members.
    I am sure he was happy to hear our previous witness, Mr. 
Dihn, say they are going to be consulted. Let me know how the 
consultation goes.
    Mr. Young is a lieutenant in the Marion City Police 
Department in Ohio and a graduate of the FBI's National 
Academy.
    Mike Brown is a sheriff of Bedford County, Virginia. He has 
held the position since 1996 and is here today representing the 
views of the National Sheriffs' Association.
    Sheriff Brown has been a staff support specialist with the 
CIA, a senior special agent with the Bureau of Alcohol, 
Tobacco, and Firearms, and he is a veteran of the U.S. Army. 
Sheriff Brown holds degrees in police administration and the 
administration of justice from American University.
    Dr. Solomon Zhao, am I pronouncing that correctly?
    Mr. Zhao. Right, yes.
    Chairman Biden. Dr. Zhao is the assistant professor of 
Criminal Justice, the University of Nebraska in Omaha. Dr. Zhao 
received his Ph.D. at Washington State University in 1994 and 
joined the faculty of Nebraska in 1995. His research focuses on 
evaluation of criminal justice innovation and organizational 
changes, particularly as they relate to community policing.
    Dr. Zhao is the co-author of a new study measuring the 
effects the COPS grants have on the crime rate, and it is a 
pleasure to have him here with us today.
    Finally, David--please pronounce it.
    Mr. Muhlhausen. Muhlhausen.
    Chairman Biden. Muhlhausen. That is what I thought. I am 
getting blind as well, David, as getting old.
    David Muhlhausen is the policy assistant of The Heritage 
Foundation. He holds a master's degree in policy science from 
the University of Maryland, and I understand that before 
joining The Heritage Foundation, he served as a staff member to 
this Committee.
    I apologize for not remembering that, David. I am sorry. 
Thank you for being here today, and welcome back.
    Mr. Muhlhausen. I am glad to be here.
    Chairman Biden. We will now proceed with 5-minute opening 
statements from each of the witnesses, starting with you, Tom, 
if you are willing.

  STATEMENT OF THOMAS P. GORDON, COUNTY EXECUTIVE, NEW CASTLE 
                        COUNTY, DELAWARE

    Mr. Gordon. Good afternoon, Subcommittee Chairman Biden. I 
am Tom Gordon. I am currently serving as the County Executive 
for New Castle County, Delaware, which is the proud hometown of 
Senator Joe Biden.
    Although I am somewhat new as an elected official, my 
career prior to public service, public office, was in law 
enforcement. My background in law enforcement began in 1975 
when I was sworn in as a police officer. Throughout my career, 
I have served as a detective, sergeant, commander of 
investigations, white collar corruption unit, co-commander of a 
murder task force, commander of serial task force 
investigation, and many other diverse positions, and to 
ultimately being promoted to the rank of chief of police.
    Until my experience as chief of police, however, nothing in 
my entire career taught me the most critical component of 
successful policing, not the long hours of surveillance, not 
the murder convictions, nor the arrest of rapists and child 
molesters, not the innovative police training, weapons or 
tactics. None of these were most critical, while in itself 
virtually important to success of policing.
    My 8 years as chief of police taught me that the most 
critical component of successful American policing is money. 
Moreover, not until I became responsible for a multimillion-
dollar budget, local government budget, and billions of 
dollars, capital projects, did I likewise learn the critical 
component of successful local governance money.
    I imagine that many of you remember serving in somewhat 
lesser positions prior to your current honored seats. Perhaps 
some of you even served in local governments where every tax 
dollar is publicly scrutinized, every referendum is voted down, 
and every bid goes to the lowest bidder.
    In most of America, law enforcement is the responsibility 
of local government, all of which has competing demands upon 
very limited financial resources. American law enforcement 
needs financial help to continue to improve its performance. 
The continued reliance upon the sole source of local tax 
revenue only dictates the resultant public policy of local 
policing at low bid. Most local police departments cannot 
afford much else.
    When law enforcement competes for the same local tax 
dollars that other lobbyists and special interest group 
coveted, law enforcement seldom wins. You see, there are really 
few proponents for more money for law enforcement. The daily 
customers of police, if you will, are criminals who generally 
are not active lobbyists for more police officers on our 
street.
    Compare, for example, the activists who lobby government 
for the precious limited dollars to build more libraries, to 
operate more parks, or construct more sewer lines. Local 
elected officials need local campaign contributions and popular 
support to win elections. Therefore, they listen to the 
builders, to developers, to business groups, the lobbyists, and 
activists who are generally silent about the allocation of tax 
dollars for police instead of their preferred projects of 
sewer, roads, and building projects. No doubt about it, 
policing is costly.
    Quality policing is even more expensive. American policing 
should not be relegated to shoestring budgets already strapped 
with demands from local government services. American policing 
needs the continued investment of Federal dollars.
    The COPS program and Federal funding has benefitted local 
law enforcement and local communities with astonishing results. 
Let me illustrate some of the successes attained in New Castle 
County by the COPS program.
    New Castle County has a population of just over 500,000. It 
comprises an area of 440 square miles. The county encompasses 
1,200 distinct communities, 13 incorporated areas, and is 
categorized as an urban/suburban mix, and it is true that, much 
of the Nation in the past 20 years, we have experienced 
extraordinary growth that has put a strain on our resources and 
resulted in the need to continually add officers just to keep 
up with the growing population.
    In addition to this challenge, the 1980's saw a steady 
increase in calls to the 911 center. Using a traditional 
approach to crime of policing, we were complaint-driven. 
Demands for services were increasing at a rate of about 7 
percent per year, growing faster than our ability to respond. 
Each incident was treated as a singular event outside the 
context of pertinent historical data. There were no systematic 
effort to determine implications for the future. The police 
process was reactive and cyclical. A complaint was received; an 
officer was dispatched. Upon apprehending a suspect, he or she 
was put through the court's process and hopefully, eventually, 
incarcerated. After a few months, a few years, this same person 
went back on the streets, and the cycle began again.
    Until the COPS program, we partnered with the Harvard 
University experts from the Kennedy School of Government, Mark 
More. Dr. More's guidance instituted community policing, first 
and foremost. We pattern our police force after the best 
examples of private industry by instituting philosophy of 
citizen accountability. We tailored our services to fit 
community policing, and it is labor intensive because we take 
officers and locate them in the communities to be served. On 
foot, on bikes, on horseback, on motorcycle, the officers go 
into our neighborhoods, not only to respond to the community, 
but to become familiar with the presence in our community, to 
be identified as a partner.
    Our officers talk to citizens. They encourage the formation 
of the active role of civic associations, and they have earned 
the trust of those that they serve. Community policing, 
however, is more important than just putting officers on a 
street and in a neighborhood. It also provides a wide range of 
opportunities for citizens to be involved in public safety.
    We divided the county into four geographic areas and formed 
citizen advisory councils in each of those areas. We offer 
citizen police academies. We have now graduated 13 classes to 
help our interesting citizens better understand police work. 
And for the younger people, we have instituted youth police 
academies. All of these efforts take live bodies.
    Since 1993, 47 officers and 12 civilians have been hired by 
New Castle County Police, utilizing the COPS program. It is 
important to note the value of hiring civilians.
    Those employees took over many administrative 
responsibilities and freed officers who required more 
specialized training and were generally more highly compensated 
so that they could get out on the street.
    What is the net effect? Well, since 1996, the crime rate 
has dropped 32 percent county-wide. Crime rates have been cut 
almost by one-third.
    Let's look at some other specifics. One of the greatest 
challenges and frustrations in law enforcement is domestic 
violence. Victims often recant their complaints. Traditionally, 
the huge percentage of homicides has been linked to domestic 
violence. Utilizing COPS funding, we produced two training 
videos regarding the problems of domestic violence to be used 
both by law enforcement personnel as well as in the community. 
We purchased pocket tape recorders and instant cameras for all 
patrol officers. Officer tape their interviews with victims 
immediately, thereby strengthening the case for prosecution. We 
hired a civilian to track all cases of domestic violence and 
identify problem residents immediately for early intervention.
    The results tell the story. There has been a 24-percent 
increase in successful prosecution of domestic violence cases. 
Even more dramatic, the percentage of homicides that are 
domestic-related has dropped from 86 percent to 18 percent.
    Let's look at specific communities. The neighborhood of 
Brookmont Farms in New Castle County has long been a poor 
stepchild. While the county-wide poverty rate is 7 percent, the 
census track including Brookmont Farms was 24 percent. All of 
the worst elements that can be found in an impoverished 
community exist in Brookmont Farms.
    Drugs were bought and sold in an open-air market. Shootings 
were common. Housing was not maintained, and over three-
quarters of the properties were rental units. When we first set 
up a trailer to be used for community policing, it was burned 
to the ground. I publicly talked about bulldozing the entire 
community.
    Utilizing the COPS funding through the advanced community 
policing grant, we put all of the elements of community 
policing to work in Brookmont Farms. We sent out walking and 
bike patrols. We formed innovative partnerships and worked to 
increase community involvement and enlisted their assistance in 
lowering the crime rates.
    The numbers are impressive. Calls for service are down by 
1,500. Assaults have dramatically declined, a 70-percent drop. 
Burglaries have dropped 66 percent. Thefts are down by 60 
percent. Even incidents of disorderly conduct registered a 65-
percent drop. That is what it takes to turn communities around, 
to provide law-abiding citizens with a safe environment where 
their children can play and wait for school buses without 
placing themselves in harm's way. That is what money buys you.
    Yes, crime is down across this country. Yes, violence is 
decreasing across our country. Yet, quality of life in our 
cities and our suburbs is improving. This is no time to 
decrease funding for local law enforcement.
    Historically, when the economy turns down, there is a 
predictable rise in crime. Our economy is staggering with slim 
hopes of rapid return to an economic boom. The law enforcement 
community is aware that layoffs and downsizing and the 
bankruptcies and the homelessness and the plight of the newly 
impoverished families will spawn a rise in crime. Domestic 
violence, car thefts, home burglaries will increase. The drug 
business will track more entrepreneurs seeking any employment 
opportunity. More drugs means more addicts. It means more 
criminals. Law enforcement needs to continue the support of 
Federal dollars.
    In recognition of our time constraints, I would like to 
thank you for the opportunity to address this country's 
esteemed subgroup of the Judiciary Committee. Please allow me 
to thank you as representatives of our Federal Government for 
the past financial support of law enforcement. We in government 
and we in the ranks of police appreciate your help.
    You know, like most of you, I am sure I remember exactly 
what I was doing on September 11th as it unfolded. I was 
huddled in the county executive's office with the colonel and 
chief of police along with other key staff members. In horror, 
we watched the news channel to see the disaster unfold before 
our eyes.
    As the shock set in, we simulated the possible 
ramifications in our lives. Our first act was to place the 
police department on full alert. Ultimately, they were deployed 
for hundreds of hours and readiness in support of citizens in 
responding to an immeasurable amount of suspicious reports.
    I turned to the police department not because I was county 
executive and not because I was a former chief, but because I 
needed help immediately. I needed the best protection for our 
local community. That is what police officers are. They protect 
our peace, our property, our children, and our lives. Our 
American police are modern-day Knights of the Round Table. 
Whenever the unthinkable happens, our police officers are 
called upon to solve it.
    From street crimes to civil unrest, from terrorism to 
homelessness, from riots to a lost child, our police officers 
are the first line of protection and our best line of 
protection. American policing needs the continued financial 
support from our Federal Government. The COPS program has been 
one of the most successful Federal programs in the history of 
policing.
    Across the Nation, there are tangible results and real 
success stories. It is an ironic twist that the funding could 
disappear for the very heroes all Americans are thanking since 
September 11th.
    We hope we can continue to rely on your support, and thank 
you, Senator Biden.
    [The prepared statement of Mr. Gordon follows.]

  Statement of Thomas P. Gordon, County Executive, New Castle County, 
                                Delaware

    Good afternoon, Subcommittee Chairman Biden, Ranking Member 
Grassley, and distinguished members of the Senate Judiciary Committee, 
Subcommittee on Crime and Drugs. My name is Tom Gordon; I currently 
serve as the County Executive for New Castle County, Delaware, which is 
the proud hometown of Senator Joe Biden. Although I am somewhat new to 
elected office, in comparison to Senator Biden, my entire career, prior 
to public office, was in law enforcement. My background in law 
enforcement began in 1975, when I was sworn in as a police officer. 
Throughout my career, I have served as a detective, sergeant, commander 
of investigations, and white collar corruption, co-commander of murder 
task force, commander of serial rape investigations, and many other 
diverse positions, until ultimately being promoted to Chief of Police.
    Until my experience as Chief of Police, however, nothing in my 
entire career taught me the most critical component of successful 
policing. Not the long hours of surveillance, not the murder 
convictions, not the arrests of rapists and child molesters, not the 
innovations in police training, weapons or tactics-none of these is the 
most critical; while each is, in itself, vitally important to 
successful policing.
    My eight years as Chief of Police taught me that the most critical 
component of successful American policing is money. Moreover, not until 
I became responsible for multi-million dollar, local-government 
budgets, and billion dollar, capital-projects did I, likewise, learn 
the most critical component of successful local governance- money. I 
imagine that many of you remember serving in somewhat lesser positions, 
prior to your current honored seat. Perhaps some of you even served in 
local government, where every tax dollar is publicly scrutinized, every 
referendum is voted down, every bid goes to lowest bidder.
    In most of America, law enforcement is the responsibility of local 
government, all of which have competing demands, upon very limited 
financial resources. American law enforcement needs financial help to 
continue to improve its performance. The continued reliance upon the 
sole source of local tax revenue only dictates the resultant public 
policy of local policing at low bid. Most local police departments 
cannot afford much else.
    When law enforcement competes for the same local tax dollars that 
other lobbyists and special interest groups covet, law enforcement 
seldom wins. You see, there are really few proponents for more money 
for law enforcement. The daily ``customers'' of police, if you will, 
are criminals. . . .who are generally not active lobbyists for more 
police officers on our streets. Compare, for example, the activists who 
lobby local government for precious, limited dollars to build more 
libraries, operate more parks, or construct more sewer lines. Local 
elected officials need local campaign contributions and popular support 
to win elections; therefore they listen to the builders, developers, 
business groups, lobbyists, and activists who are generally silent 
about allocation of tax dollars to police, instead of their preferred 
projects of sewers, roads, building projects, etc.
    No doubt about it: policing is costly. Quality policing is even 
more expensive. American policing should not be relegated to shoe-
string budgets, already strapped with demands for other local 
government services. American policing needs the continued investment 
of federal dollars. The COPS Program and Federal funding has benefited 
local law enforcement and local communities with astonishing results. 
Let me illustrate some of the successes attained in New Castle County 
because of the COPS program.
    New Castle County has a population of just over 500,000 and 
comprises an area of 440 square miles. The County encompasses over 1200 
distinct communities, 13 incorporated areas and is categorized as 
urban/suburban mix.
    As is true in much of the nation, in the past 20 years we have 
experienced extraordinary growth that has put a strain on our resources 
and resulted in the need to continually add officers just to keep pace 
with a growing population.
    In addition to this challenge, the 1980s saw steady increases in 
calls to the 911 Center. Using the traditional approach to crime and 
policing, we were complaint-driven. Demands for service were increasing 
at a rate of 7 percent per year, growing at a rate faster than our 
ability to respond. Each incident was treated as a singular event 
outside the context of pertinent historical data. There were no 
systematic efforts to determine implications for the future. The police 
process was reactive and cyclical. A complaint was received, an officer 
dispatched. Upon apprehending a suspect, he or she was put through the 
court process and, hopefully, eventually incarcerated. After a few 
months, or a few years, the same person was back on the streets and the 
cycle began again.
    Utilizing COPS dollars, we instituted Community Policing. First and 
foremost, we patterned our police force after the best examples of 
private industry by instituting a philosophy of citizen accountability. 
We tailor our services to fit our citizens' needs.
    Community Policing is labor-intensive because we take officers and 
locate them in the communities to be served. On foot, on bikes, horses 
or motorcycles, the officers go out into the neighborhoods--not only to 
respond to complaints, but to become a familiar presence in the 
community, to be identified as a partner. Our officers talk to 
citizens, they encourage the formation and active role of civic 
organizations and they earn the trust of those they serve.
    Community Policing, however, is more than just putting officers on 
the streets and into neighborhoods. It is also providing a range of 
opportunities for citizen involvement in public safety. We have divided 
the County into four geographic areas and formed citizen advisory 
councils in each of those areas. We offer Citizens Police Academies--we 
have now graduated 13 classes--to help interested citizens better 
understand police work and, for young people, Youth Police Academies.
    All these efforts take live bodies. Since 1993, 47 officers and 12 
civilians have been hired in New Castle County utilizing COPS funding. 
It's important to note the value of hiring civilians. Those employees 
took over many administrative responsibilities and freed officers--who 
require more specialized training and who are generally more highly 
compensated--to get out on the streets.
    What's the net effect? Well, since 1996, crime rates have dropped 
32 percent countywide--crime rates cut by almost one-third.
    Let's look at some specifics. One of the greatest challenges and 
frustrations in law enforcement is domestic violence. Victims often 
recant their complaints. Traditionally, a huge percentage of homicides 
have been linked to domestic violence. Utilizing COPS funding, we 
produced two training videos regarding the problem of domestic 
violence, to be used for both law enforcement personnel and in the 
community. We purchased pocket tape recorders and instant cameras for 
all patrol officers. Officers tape their interviews with victims 
immediately, thereby strengthening the cases for prosecution. We hired 
a civilian to track all cases of domestic violence and identify problem 
residences immediately for early intervention.
    The results tell the story. There has been a 24 percent increase in 
successful prosecutions of domestic violence cases. Even more dramatic, 
the percentage of homicides that are domestic-related has dropped from 
86 percent to 18 percent.
    Let's look at a specific community. The neighborhood of Brookmont 
Farms has long been New Castle County's poor stepchild. While the 
countywide poverty rate is 7 percent, in the census tract including 
Brookmont, it was 24 percent. All the worst elements that can be found 
in an impoverished community existed in Brookmont. Drugs were bought 
and sold in open-air drug markets. Shootings were common. Housing was 
not maintained and over a third of the properties were rental units. 
When we first set up a trailer to use for Community Policing, it was 
burned to the ground. I publicly talked about simply bulldozing the 
community down.
    Utilizing COPS funding through the Advanced Community Policing 
grant, we put all the elements of Community Policing to work in 
Brookmont. We sent out walking and bike patrols, we formed innovative 
partnerships and worked to increase community involvement and enlist 
their assistance in lowering the crime rate. The numbers are 
impressive. Calls for service are down by 1500. Assaults have 
dramatically declined--a 70 percent drop. Burglaries have dropped 66 
percent. Thefts are down by 50 percent. Even incidents of disorderly 
conduct register a 65 percent drop.
    That's what it takes to turn a community around and to provide law-
abiding citizens with a safe environment where their children can play 
and wait for the school bus without placing themselves in harms way. 
That's what money buys you.
                               Conclusion
    Yes, crime is down across our country. Yes, violence has decreased 
across our country. Yes, quality of life in our cities and in our 
suburbs is improving. This is no time to decrease funding for law 
enforcement.
    Historically, when the economy turns down, there is a predictable 
rise in crime. Our economy is still sagging, with slim hopes of a rapid 
return to an economic boom. The law enforcement community is aware that 
the lay offs, the downsizing, the bankruptcies, the homelessness, and 
the plights of newly impoverished families will all spawn a rise in 
crime.
    Domestic violence, car thefts, and home burglaries will increase. 
The drug business will attract more entrepreneurs seeking any 
employment opportunity. More drugs means more addicts, which means more 
criminals. Law enforcement needs the continued support of our federal 
dollars.
    In recognition of our time constraints, I would like to thank you 
for the opportunity to address our country's esteemed subcommittee of 
the Senate Judiciary. Please allow me to thank you, as representatives 
of our federal government, for the past financial support of law 
enforcement. We, in local government, and we in the ranks of police, 
appreciate your help.
    You know, like most of you I'm sure, I remember exactly where I was 
when the events of September 11, 2001 unfolded,. I was huddled in our 
Executive Offices with Colonel Cunningham, the current Chief of Police 
and other key staff members. In horror, we watched the news channel to 
see the disaster unfold before the eyes of all America. As the shock 
set in, we assimilated what the possible ramifications in our lives. 
Our first act was to place the police department on full alert. 
Unfortunately they were deployed for hundreds of hours in readiness, in 
support of citizens and responding to immeasurable suspicious reports.
    Not because I am County Executive, and not because I was Chief of 
Police, but because I needed immediate help. I needed the best 
protection for our local communities. That's what police officers are. 
They protect our peace, our property, our children, our lives. Our 
American police are modern day knights of the roundtable. Whenever the 
unthinkable happens, our police officers are called upon to solve it.
    From street crime to civil unrest, from terrorism to homelessness, 
from a riot to a lost child, our police officers are our first line of 
protection and our best line of protection.
    American policing needs the continued financial support from our 
federal government. The COPS Program has been one of the most 
successful federal programs in the history of policing. Across the 
nation, there are tangible results, and real successes. It is a ironic 
twist that funding could disappear for the very heroes all Americans 
are thanking daily since September 11th.
    We hope we can continue to rely on your support.

    Chairman Biden. Tom, thank you for taking this appearance 
so seriously and for your statement.
    Colonel?

  STATEMENT OF COLONEL LONNIE WESTPHAL, CHIEF, COLORADO STATE 
PATROL, AND VICE PRESIDENT, INTERNATIONAL ASSOCIATION OF CHIEFS 
                           OF POLICE

    Mr. Westphal. Thank you, Mr. Chairman. As you said, I am 
Colonel Lonnie Westphal, chief of the State Patrol of Colorado. 
I am also the fifth vice president for IACP, and after 28 years 
in the State Patrol, I, too, think like a cop.
    Chairman Biden. You have good reason to.
    Mr. Westphal. I am very pleased to be here today on behalf 
of the International Association of Chiefs of Police. As you 
may know, the IACP is the world's oldest and largest police 
organization, founded in 1893, with the current membership 
exceeding 18,000 law enforcement executives.
    The IACP has been, and continues to be, a strong supporter 
of the COPS program and the COPS office. Since its inception in 
1994, the COPS program and the community policing philosophy it 
fosters has been very successful in helping law enforcement 
agencies throughout the Nation reduce crime rates and maintain 
safer communities.
    During the last decade, communities throughout the Nation 
have witnessed the remarkable decline in the rate of crime. 
America today is a far safer place than America of 1991. Years 
of innovative and effective efforts by Federal, State, and 
local law enforcement agencies have transformed our 
neighborhoods from havens of fear to safer, more secure 
communities.
    Our success in reducing the level of crime can be traced to 
several factors. In 2001, the police officers are better 
trained, better educated, and better equipped than their 
predecessors. In addition, advances in communication and 
information technologies have allowed law enforcement 
administrators to develop comprehensive, integrated crime 
reduction strategies.
    However, one of the most significant factors in the 
reduction in crime levels has been the partnership between law 
enforcement agencies and the communities they serve. By 
embracing the philosophy of community policing, law enforcement 
agencies have been able to work with citizens to create safer 
towns and cities. We have learned that to be effective, police 
cannot operate alone. They must have the active support and 
assistance of citizens and the communities.
    It is the IACP's belief that the COPS program has played an 
integral role in achieving this success. By providing law 
enforcement agencies with the necessary resources, training, 
and assistance, the COPS program has become an invaluable ally 
to State and local law enforcement agencies.
    The numbers speak for themselves. Since 1994, the COPS 
office has invested more than $8.5 billion to assist State and 
local law enforcement agencies in hiring officers, acquiring 
vital crime-fighting technology, and assisting agencies in 
receiving training and other technical assistance.
    In addition, because it is dedicated only to meeting the 
needs of the Nation's law enforcement agencies, the COPS office 
has become a key component in the Federal, State, and local law 
enforcement partnership. In fact, because of its focus on law 
enforcement issues, the COPS office is often the first place 
that State and local law enforcement agencies turn when they 
need financial assistance to meet emerging public safety needs.
    The success of the COPS program, however, is not solely due 
to the amount of Federal assistance funds that have been made 
available to State and local law enforcement agencies, but also 
to the manner in which the program has operated. The key to the 
success of the COPS program is that it works with the 
individuals who best understand the needs of their States and 
communities, State and local law enforcement executives. By 
adopting this approach, the COPS office ensures that the right 
funds are being provided to the correct agencies to address the 
appropriate needs.
    At this critical time, it is vital for the Federal 
Government to ensure that it has an efficient and effective 
means of providing State and local law enforcement agencies 
with the assistance they require. For the last 7 years, the 
COPS office has demonstrated that it is the agency to 
accomplish this task. It is because of its unique role in 
serving the needs of State and local law enforcement that the 
IACP strongly believes that the COPS office must remain an 
independent component within the Department of Justice.
    It is also important to note that the COPS program is not 
entirely about hiring officers or providing law enforcement 
agencies with new equipment. The program also serves as a 
catalyst for the innovative policing programs that address 
urgent law enforcement issues and develop policies, programs, 
training, and technical assistance to help law enforcement 
solve those issues. As I appear before you today, combating 
terrorism looms at the most urgent issue facing our members and 
the communities they serve.
    Although the primary mission of law enforcement agencies 
has always been to ensure public safety, the events of 
September 11th have dramatically and significantly changed the 
focus of law enforcement operations. Suddenly, agencies and 
officers who have been trained and equipped to deal with 
traditional crimes are now focused on apprehending individuals 
operating with different motivations, who have different 
objectives, and who use much deadlier weapons than traditional 
criminals. As a result, law enforcement agencies and officers 
will need new training and new equipment to meet this new 
threat.
    As agencies prepare to meet this challenge, the IACP 
believes that the COPS office can play a vital role in assuring 
that the necessary resources are made available to State and 
local law enforcement agencies. In particular, the IACP 
believes that the COPS office would be the logical agency to 
provide assistance funds to State and local law enforcement 
agencies so that they may purchase necessary safety equipment 
for their officers, provide terrorism-related training 
programs, and to meet the increased manpower demands placed on 
agencies since September 11th.
    It is the IACP's hope that at this difficult time for our 
Nation's law enforcement agencies, the COPS office will 
continue to provide them with the assistance and the support 
they have enjoyed over the last 7 years.
    Mr. Chairman, this concludes my statement, and I would be 
glad to answer any questions you may have.
    [The prepared statement of Mr. Westphal follows:]

      Statement of Colonel Lonnie Westphal, Vice President of the 
             International Association of Chiefs of Police

    Good Afternoon, Mr. Chairman, Senator Grassley, and Members of the 
Committee:
    I am pleased to be here today on behalf of the International 
Association of Chiefs of Police. As you may know, the IACP is the 
world's and largest police organization, founded in 1893, and with a 
current membership exceeding 18,000 law enforcement executives.
    The IACP has been, and continues to be, a strong supporter of the 
COPS program and the COPS Office. Since its inception in 1994, the COPS 
program, and the community policing philosophy it fosters, has been 
very successful in helping law enforcement agencies throughout the 
nation reduce crime rates and maintain safer communities.
    During the last decade, communities throughout the nation have 
witnessed a remarkable decline in the rate of crime. America today is a 
far safer place than the America of 1991. Years of innovative and 
effective efforts by federal, state and local law enforcement agencies 
have transformed our neighborhoods from havens of fear to safer, more 
secure communities.
    Our success in reducing the level of crime can be traced to several 
factors: in 2001 the police officers are better trained, better 
educated and better equipped than their predecessors. In addition, 
advances in communication and information technologies have allowed law 
enforcement administrators to develop comprehensive, integrated crime 
reduction strategies.
    However, one of the most significant factors in the reduction in 
crime levels has been the partnership between law enforcement agencies 
and the communities they serve. By embracing the philosophy of 
community policing, law enforcement agencies have been able to work 
with citizens to create safer towns and cities. We have learned that to 
be effective, police can not operate alone; they must have the active 
support and assistance of citizens and communities.
    It is the IACP's belief that the COPS program has played an 
integral role in achieving this success. By providing law enforcement 
agencies with the necessary resources, training and assistance, the 
COPS program has become an invaluable ally to state and local law 
enforcement agencies.
    The numbers speak for themselves. Since 1994, the COPS Office has 
invested more than 8.5 billion dollars to assist state and local law 
enforcement agencies in hiring officers, acquiring vital crime fighting 
technology, and assisting agencies in receiving training and other 
technical assistance. In addition, because it is dedicated only to 
meeting the needs of the nation's law enforcement agencies, the COPS 
office has become a key component in the federal, state, and local law 
enforcement partnership. In fact, because of its focus on law 
enforcement issues, the COPS office is often the first place that state 
and local law enforcement agencies turn to when they need financial 
assistance to meet emerging public safety needs.
    However, the success of the COPS program is not due solely to the 
amount of federal assistance funds that have been made available to 
state and local law enforcement agencies, but also to the manner in 
which the program has operated. The key to the success of the COPS 
program is that it works with the individuals who best understand the 
needs of their states and communities: state and local law enforcement 
executives. By adopting this approach, the COPS Office ensures that the 
right funds are being provided to the correct agencies to address 
appropriate needs.
    At this critical time, it is vital for the federal government to 
ensure that it has an efficient and effective means of providing state 
and local law enforcement agencies with the assistance they require. 
For the last seven years, the COPS Office has demonstrated that it is 
the agency to accomplish this task. It is because of its unique role in 
serving the needs of state and local law enforcement that the IACP 
strongly believes that the COPS Office must remain an independent 
component within the Department of Justice.
    It is important to note that the COPS program is not solely about 
hiring officers or providing law enforcement agencies with new 
equipment. The program also serves as a catalyst for innovative 
policing programs that address urgent law enforcement issues and 
develop policies, programs, training and technical assistance to help 
law enforcement solve those issues. And as I appear before you today, 
combating terrorism looms as the most urgent issue facing our members 
and the communities they serve.
    Although the primary mission of law enforcement agencies has always 
been to ensure public safety, the events of September 11th have 
dramatically and significantly changed the focus of law enforcement 
operations. Suddenly, agencies and officers who have been trained and 
equipped to deal with traditional crimes are now focused on 
apprehending individuals operating with different motivations, who have 
different objectives and who use much deadlier weapons than traditional 
criminals. As a result, law enforcement agencies and officers will need 
new training and new equipment to meet this new threat.
    As agencies prepare to meet this challenge, the IACP believes that 
the COPS office can play a vital role in assuring that the necessary 
resources are made available to state and local law enforcement 
agencies. In particular, the IACP believes that the COPS office would 
be the logical agency to provide assistance funds to state and local 
law enforcement agencies so that they may purchase necessary safety 
equipment for their officers, provide terrorism-related training 
programs, and to meet the increased manpower demands placed on agencies 
since September 11th.
    It is the IACP's hope, that at this difficult time for our nation's 
law enforcement agencies, the COPS office will continue to provide them 
with the assistance and support that have enjoyed over the last seven 
years.
    This concludes my statement. I would be glad to answer any 
questions you may have.

    Chairman Biden. Colonel, thank you. I do have questions, 
but I am going to hear from everyone else in the meantime, and 
by the way, thanks for being here. It is a big deal.
    Mr. Westphal. Thank you, Mr. Chairman.
    Chairman Biden. Sheriff, welcome north.

STATEMENT OF MIKE BROWN, SHERIFF, BEDFORD COUNTY, VIRGINIA, AND 
                 NATIONAL SHERIFFS' ASSOCIATION

    Mr. Brown. Thank you. Delighted to be here. It is always 
great to be at the seat of government.
    Mr. Chairman and members of the Committee, thank you for 
the opportunity to come before you today and to speak about 
this program called the COPS program.
    Sheriffs are elected officials, like yourself, and as such, 
we work for the constituents, the voters. Because of this 
unique relationship, sheriffs are closer to the community than 
most, and naturally we come to know our communities very well. 
Community policing is a natural fit for the sheriff, and we 
think that has been demonstrated by the President's pick of 
former Sheriff Carl Peed to lead the COPS office. He is the 
right man for the job, and I know he has the support of the 
3,088 sheriffs throughout this great Nation.
    My name is Mike Brown, and I am the Sheriff of Bedford 
County, Virginia. Bedford County lies in the Blue Ridge 
Mountains, between Roanoke and Lynchburg, Virginia, and is the 
home of the National D-Day Memorial.
    I am a retired Federal agent with 34 years in the law 
enforcement and intelligence community, but I am honored to 
have been the Sheriff for Bedford County since 1996.
    Today, I am pleased to represent the National Sheriffs' 
Association, where I serve on the board of directors and am a 
member of the Congressional Affairs Committee.
    At the outset, let me say that we support the COPS program, 
and nearly two-thirds of all sheriffs in this Nation have 
received a COPS grant. With this added capability that the COPS 
grant provides, I believe we have reduced crime, streets are 
safer, and honest law-abiding citizens feel more secure in 
their communities, but while we support the office of COPS, 
there are some changes that can be made that we feel would 
benefit sheriffs and other law enforcement officials.
    As you may know, sheriffs around the Nation depend on the 
COPS program to supplement their law enforcement capabilities. 
Sheriffs need the additional funding provided so that they can 
better protect and serve their communities. The COPS program 
has been, as far as we are concerned, an overwhelming success 
and has had a tangible and positive impact on crime reduction.
    Is it the sole reason for crime reduction? Possibly not, 
but that does not diminish its value to law enforcement. Many 
factors have contributed to crime reduction. However, COPS has 
played an important role, and I think it would be a mistake to 
say that the mission of the COPS office has been completed, 
therefore, the program can be eliminated.
    The National Sheriffs' Association supports a flexible COPS 
program that allows sheriffs to determine their own needs and 
apply for funds accordingly. Sheriffs have overwhelming 
technology needs that can be addressed through the COPS 
technology grant programs. In that vein, we are grateful that 
Congress has reconsidered the need to prove the redeployment of 
officers as a result of the technology. In our experience, this 
burden discourages sheriffs from submitting worthy programs for 
funding and led agencies to play games with redeployment 
figures.
    The COPS program can help sheriffs purchase state-of-the-
art technology. In this information age, it is more important 
than ever that we strive to achieve telecommunications and 
systems compatibility among criminal justice agencies, improve 
our forensic sciences capability at the State and local levels 
and encourage the use of technology to predict and prevent 
crime. The total package of law enforcement support that COPS 
provides is an integral part of crime control in America.
    COPS is also a valuable ally in the fight against school 
violence. The COPS in Schools program provides a school 
resource officer for jurisdictions to better understand the 
unique needs of law enforcement in schools. These SROs provide 
a strong link between school administrators and law enforcement 
officials. It also provides an immediate response capability to 
any criminal activity on school grounds.
    Beyond hiring and technology, COPS has a role to play in 
the national fight against terrorism. As you know and are 
aware, the National Sheriffs' Association directs and maintains 
the National Neighborhood Watch program. We believe that this 
program can be a way for the average American to join the fight 
against terrorism. Just as the program currently helps 
neighbors spot suspicious activity, we feel that with Federal 
support the program can evolve to help neighbors look out for 
one another and prevent terrorists from hiding deep in American 
society, as did those who attacked New York City and the 
Pentagon.
    Calling all Americans ``soldiers in the war against 
terrorism,'' President Bush encouraged citizens to report 
suspicious activity and remain ``in a heightened state of alert 
for more terrorist attacks.'' In what Attorney General John 
Ashcroft described as ``another step in what is, in effect, a 
national neighborhood watch,'' he urged Americans who may have 
``seen the hijackers or been in contact with them'' to contact 
the FBI with any information they may have.
    Neighborhoods across the Nation are facing a new reality 
since the tragic events of September the 11th. People fear 
continued victimization at the hands of terrorists. Our Nation 
cannot afford to wait until terrorists show themselves through 
further cowardly attacks. Terrorist must be detected before 
they strike again.
    The experience of September the 11th has shown that current 
law enforcement and intelligence operations lack an early 
warning capability to identify terrorists before the attack. An 
observant and alert neighbor could have tipped, and can 
possibly tip, law enforcement to the presence of terrorists in 
the community.
    In our view, COPS can take a lead role in adapting 
Neighborhood Watch programs for the prevention of terrorism. A 
Neighborhood Watch program that energizes average Americans in 
the fight against terrorism will greatly enhance the security 
of our Nation and make Americans safe in their homes, 
neighborhoods, and communities.
    In conclusion, COPS is a program that is vital to law 
enforcement and to sheriffs in both rural and urban 
jurisdictions. We especially appreciate the fact that the COPS 
office is user friendly. It makes applying for grants 
significantly easier and much less intimidating. The direct 
connection that COPS has with law enforcement allows it to be 
effective and meet its goals.
    Mr. Chairman, without COPS, I firmly believe our 
communities would be a little less safe and a little more 
dangerous. Thank you again for your commitment to reducing 
crime. Know that the National Sheriffs' Association will do our 
part in the fight against crime, and given the proper 
resources, we can truly make a difference.
    Mr. Chairman, thank you very much for allowing me to speak 
this day.
    [The prepared statement of Mr. Brown follows:]

    Statement of Mike Brown, Sheriff, Bedford County, Virginia, and 
                     National Sheriffs' Association

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to come before this distinguished committee to talk about 
the COPS program. I like to tell people that sheriffs have been doing 
community policing well before that term entered our vocabulary. 
Sheriffs are elected officials, like yourself, and as such we work for 
the constituents--the voters. Because of this unique relationship, 
sheriffs are closer to the community than most and naturally, we come 
to know our communities very well. Community policing is a natural fit 
for sheriffs and we think that has been demonstrated by the President's 
pick of former Sheriff Carl Peed to lead the COPS office. We are 
pleased to see him working on behalf of our nation's state and local 
law enforcement. He's the right man for the job and I know he has the 
support of the 3,088 sheriffs across this great country.
    My name is Mike Brown and I am the Sheriff of Bedford County, 
Virginia. Bedford County lies in the Blue Ridge Mountains, between 
Roanoke and Lynchburg, Virginia, and is home to the National D-Day 
Memorial. Bedford County is the third largest county (in land mass) in 
the state with a population of nearly 60,000 residents. I am a retired 
federal agent with 34 years of law enforcement and intelligence 
experience and it has been my honor to be the Sheriff of Bedford County 
since 1996. Today I am pleased to represent the National Sheriffs' 
Association, where I serve on the Board of Directors and am a member of 
the Congressional Affairs Committee.
    At the outset, let me say that we support the COPS program and 
nearly two-thirds of all of the sheriffs in the nation have received a 
COPS grant. With the added capability that a COPS grant provides, I 
believe we have reduced crime, streets are safer and honest law-abiding 
people feel more secure in their communities. But while we support the 
office there are some changes that can be made that we feel would 
benefit sheriffs and other law enforcement officials.
    As you may know, sheriffs around the nation depend on the COPS 
program to supplement their law enforcement capabilities. Sheriffs need 
the additional funding provided so that they can better protect and 
serve their communities. The COPS program has been an overwhelming 
success and has had a tangible and positive impact on crime reduction. 
Is it the sole reason that crime is down? Probably not, but that does 
not diminish its value to law enforcement. Many factors have 
contributed to crime reduction, however, COPS has played an important 
role and I think it would be a mistake to say that the mission of the 
COPS office has been completed therefore the program can be eliminated.
    NSA supports a flexible COPS program that allows sheriffs to 
determine their own needs and apply for funds accordingly. Sheriffs 
have overwhelming technology needs that can be addressed through the 
COPS technology grant programs. In that vein, we are grateful that 
Congress has reconsidered the need to prove the redeployment of 
officers as a result of the technology.
    In our experience, this burden discouraged sheriffs from submitting 
worthy programs for funding and led agencies to play games with 
redeployment figures.
    The COPS program can help sheriffs purchase state-of-the-art 
technology. In this information age, it is more important than ever 
that we strive to achieve telecommunications and systems compatibility 
among criminal justice agencies, improve our forensic sciences 
capability at the state and local level and encourage the use of 
technologies to predict and prevent crime. The total package of law 
enforcement support that COPS provides is an integral part of crime 
control in America.
    COPS is also a valuable ally in the fight against school violence. 
The COPS In Schools program provides a school resource officer for 
jurisdictions to better understand the unique needs of law enforcement 
in schools. These SROs provide a strong link between school 
administrators and law enforcement officials. It also provides an 
immediate response capability to any criminal activity on school 
grounds.
    Beyond hiring and technology, COPS has a role to play in the 
national fight against terrorism. As you know, the National Sheriffs' 
Association directs and maintains the National Neighborhood Watch 
program. We believe that this program can be a way for the average 
American to join the fight against terrorism. Just as the program 
currently helps neighbors spot suspicious activity to thwart burglary, 
we feel that with federal support the program can evolve to help 
neighbors look out for one another and prevent terrorist from hiding 
deep in American society as did those who attacked New York City and 
the Pentagon.
    Calling all Americans ``soldiers in the war against terrorism'' 
President Bush encouraged citizens to report suspicious activity and 
remain ``in a heightened state of alert for more terrorist attacks.'' 
(October 30, 2001) In what Attorney General John Ashcroft described as 
``another step in what is, in effect, a national neighborhood watch,'' 
he urged Americans who may have ``seen the hijackers or been in contact 
with them'' to contact the FBI with any information they may have. 
(September 28, 2001)
    Neighborhoods across the nation are facing a new reality since the 
tragic events of September 11th. People fear continued victimization at 
the hands of terrorists. Our nation cannot afford to wait until 
terrorists show themselves through further cowardly attacks; terrorists 
must be detected before they strike again. The experience of September 
11 has shown that current law enforcement and intelligence operations 
lack an early warning capability to identify terrorist before the 
attack. An observant and alert neighbor could have tipped law 
enforcement to the presence of terrorists in the community.
    In our view, COPS can take a lead role in adapting Neighborhood 
Watch programs for the prevention of terrorism. A Neighborhood Watch 
program that energizes average Americans in the fight against terrorism 
will greatly enhance the security our nation and make Americans safe in 
their homes, neighborhoods and communities.
    In conclusion, COPS is a program that is vital to effective law 
enforcement and to sheriffs in both rural and urban jurisdictions. We 
especially appreciate the fact that the COPS office is user friendly. 
It makes applying for grants significantly easier and much less 
intimidating. The direct connection that COPS has with law enforcement 
allows it to be effective and meet its goals.
    Mr. Chairman, without COPS, I firmly believe our communities would 
be a little less safe and a little more dangerous.
    Thank you again for your commitment to reducing crime. Know that 
NSA will do our part in the fight against crime and given the proper 
resources, we can truly make a difference.Thank you, Mr. Chairman for 
your time this afternoon. I look forward to answering any questions the 
Committee may have.

    Chairman Biden. Sheriff, thank you as well, and I might 
note for the record that IACP as well as the sheriffs and the 
next outfit really did draft this COPS bill. I mean, this goes 
back to 1993, sitting around that table in my office, and it 
literally was--I do not know. There may be other times when 
that has been done, but I do not think there has ever been a 
time where a major piece of legislation, which is part of the 
criticism we get, has been drafted. And I am going to come back 
to you, Sheriff, to give you a little heads-up, in the 
questioning, so you can think about it.
    Just because we have a COPS program, just because it was 
written the way it was, it does not mean it cannot be improved. 
So I would like to hear from you all. I am going to give you a 
heads-up now. When we get to questioning, I am going to ask you 
about what kinds of things you think we should be doing to 
improve the COPS program, but, at any rate, that is just to 
give you time to think while you are waiting to hear other 
people's testimony.
    Steve, fire away.

   STATEMENT OF STEVE YOUNG, LIEUTENANT, MARION CITY POLICE 
  DEPARTMENT AND NATIONAL PRESIDENT, FRATERNAL ORDER OF POLICE

    Mr. Young. Thank you, Senator.
    Before I get into my prepared remarks, I would like to 
share with you that yesterday in the afternoon, I attended the 
medal ceremony for the New York City Police Department, and 23 
of those medals were handed out posthumously. Next May 15th as 
we gather here on the West Lawn of the White House to honor the 
fallen officers across the country, we anticipate that we will 
be honoring about 225 officers.
    I say that because I want to thank you for the effort you 
gave personally to increase the public safety officer's 
benefit, and as you see the spouses and the children and the 
families that have been impacted by these tragedies, our 
appreciation for your efforts there cannot be overstated, but 
at the very least, I wanted to say thank you.
    Chairman Biden. Well, Steve, I want to thank you, but as 
you know, when you attend that police memorial, as I have for 
every year for as long as I can think of, that is all you got 
to do. All you got to do is just be there, just be there once, 
and you understand that as you look at those women and men 
survivors, the spouses, the mothers, the fathers, the kids, it 
does not take much to figure out that we did not even increase 
that for inflation. So me moving it to a quarter-of-a-million 
dollars, I appreciate the wonderful and hundreds of people who 
have contacted me to thank me for that, but, God, it hardly 
does anything.
    What you all put on that memorial service and the strong 
support of this President and the last President for that 
particular ceremony is also vitally important. People see it. 
People feel it. All you got to do is see it. You will feel it, 
and you will understand what we did is the minimum--minimum we 
should be doing, but you are kind to recognize it.
    Please go ahead with your statement.
    Mr. Young. Senator, as you know, my name is Steve Young, 
and I am the national president of the Fraternal Order of 
Police, the largest law enforcement labor organization in the 
Nation, representing more than 299,000 members.
    I am here today to speak about our organization's strong 
support for the Office for Community Oriented Policing 
Services, or COPS.
    The COPS program and the local law enforcement block grant 
program are the two most effective Federal anti-crime programs 
today. Both programs allow Federal resources to be focused and 
directed to the local level, but this year, we are faced with 
the grim reality that the authorization for the COPS program is 
close to expiring and the block grant funding was cut by more 
than 23 percent, which amounts to $121.8 million.
    In our view, the COPS program is, and should remain, the 
back bone of direct Federal aid to local and State law 
enforcement agencies. The block grant program provides funding 
to the local unit of government with a great deal of latitude 
in the use of the money, whether it is lighting for a 
recreational park to reduce criminal activity at night or to 
purchase additional squad cars. This type of flexibility is 
important. However, the strength of the COPS program is that it 
provides targeted funding which goes directly to the local law 
enforcement agency to increase the number of law enforcement 
officers available to patrol our streets or serve in our 
schools as school resource officers.
    Congress, with the strong support of a united law 
enforcement community, made great strides in addressing crime 
in America by enacting the COPS program as part of the 1994 
Crime Act. Today, Congress and the law enforcement community 
pledged to reduce crime by following the advice of law 
enforcement: More officers equals less crime.
    This simple formula has proved enormously successful. Ahead 
of schedule and under budget, the COPS office has made good on 
the congressional pledge, enabling communities to hire or 
redeploy more than 100,000 law enforcement officers in more 
than 11,000 State and local agencies across the Nation.
    My own department in Marion, Ohio, has received $825,000 
from the program, allowing us to hire 11 new officers and 
redeploy officers into our school resource program. The State 
of Ohio received an aggregate of $227 million from the COPS 
office, adding 3,638 officers to the street. Simply put, there 
is no other Federal program that offers this type of direct 
assistance to law enforcement agencies. It has a tremendously 
positive impact on public safety in communities like mine in 
Marion, Ohio. This, Mr. Chairman, is a great testimonial to the 
success of the program.
    Crime rates have fallen to their lowest levels in decades. 
A reduction in crime means that there are Americans who likely 
would have been crime victims had the 1994 Crime Act not been 
passed and the COPS program never implemented. It is important 
to emphasize this point: Lives and property were saved because 
of this program and the efforts of the dedicated men and women 
in the law enforcement profession.
    The COPS program also represents something as equally 
valuable as more officers on our streets. The COPS program was 
the centerpiece of a plan to launch a new national law 
enforcement strategy, community-oriented policing. This 
practice, which had already proven successful in many 
communities, is now found in virtually all jurisdictions.
    Departments were able to implement community-oriented 
policing because the COPS program enabled them to call upon 
Federal resources to get the officers needed to make the 
strategy work in their communities. Without these resources, 
law enforcement agencies will be unable to continue this 
successful strategy.
    I cannot imagine that anyone here would want to give back 
the ground that we have won in the fight against crime. What we 
must keep in focus is that the community policing strategy has 
worked to reduce crime in our country. The FOP, along with the 
rest of the law enforcement community, clearly recognizes the 
value of this program.
    For this reason, we will be working with members of the 
Senate and the House to not only continue our support of COPS, 
but to reauthorize the program.
    We strongly support your bill, Mr. Chairman, S. 924, the 
Protection Act, would reauthorize the COPS program through 2007 
to hire and retain police officers, pay overtime, and reimburse 
officers for pursuing college and advanced degrees to enhance 
their job skills as well as providing Federal money for new 
technology.
    The FOP believes this legislation builds on a solid 
foundation of success. We have here a Government program that 
works. It is inexplicable to me that we would end such a 
successful program.
    I thank you, Mr. Chairman and Ranking Member Grassley, for 
inviting me to participate in this hearing today, and, of 
course, I would be pleased to answer any questions.
    [The prepared statement of Mr. Young follows:]

 Statement of Steve Young, Lieutenant, Marion City Police Department, 
             National President, Fraternal Order of Police

    Good morning, Mr. Chairman and distinguished Members of the Senate 
Subcommittee on Crime, my name is Steve Young, and I am the National 
President of the Fraternal Order of Police, the largest law enforcement 
labor organization in the nation, representing more than 299,000 
members.
    I am here this morning to speak about our organization's strong 
support for the Office for Community Oriented Policing Services, or 
COPS.
    The COPS program and the Local Law Enforcement Block Grant (LLEBG) 
program are the two most effective Federal anti-crime programs today. 
Both programs allow Federal resources to be focused and directed to the 
local level, but this year we are faced with the grim reality that the 
authorization for the COPS program is close to expiring and the LLEBG 
was cut by more than twenty-three percent (23%), totaling $121.8 
million.
    In our view, the COPS program is and should remain the backbone of 
direct Federal aid to local and State law enforcement agencies. The 
block grant program provides funding to the local unit of government 
with a great deal of latitude in use of the money--whether it is 
lighting for a recreational park to reduce criminal activity at night, 
or to purchase additional squad cars.
    This type of flexibility is important, however, the strength of the 
COPS program is that it provides targeted funding which goes directly 
to the local law enforcement agency to increase the number of law 
enforcement officers available to patrol our streets or serve in our 
schools as School Resource Officers.
    Congress, with the strong support of a united law enforcement 
community, made great strides in addressing crime in America by 
enacting the COPS program as part of the 1994 Crime Act. Together, 
Congress pledged to reduce crime by following the advice of law 
enforcement: More officers equal less crime.
    This simple formula has proved enormously successful. Ahead of 
schedule and under budget, the COPS office has made good on the 
Congressional pledge, enabling communities to hire or redeploy more 
than 100,000 law enforcement officers in more than 11,000 State and 
local agencies across the nation. My own Department has received more 
than $825,000 from the program, allowing us to hire or redeploy eleven 
new officers in Marion, Ohio. The State of Ohio received an aggregate 
$226.9 million from the COPS office--adding 3,638 officers to the 
street.
    SImply put, there is not other Federal program that offers this 
type of direct assistance to law enforcement agencies. In has a 
tremendously positive impact on public safety in communities like 
Marion.
    This, Mr. Chairman, is a greater testimonial to the success of this 
program than anything anyone here today can say for the record.
    Crime rates have fallen for more than eight consecutive years now. 
A reduction in crime means there are Americans who could have been 
crime victims if the 1994 Crime Act never been passed and the COPS 
program never been implemented. It is important to recognize this 
point--lives and property were saved because of this program and the 
efforts of the dedicated men and women in law enforcement.
    The COPS program also represents something as equally valuable as 
more officers on our streets; the COPS program was the centerpiece of a 
plan to launch a new national law enforcement strategy--``community-
oriented policing.'' This practice, which had already proven successful 
at the local level, is now found in virtually all jurisdictions. Local 
departments were able to implement ``community-oriented policing'' 
because the COPS program enabled them to call upon Federal resources to 
get the manpower they needed to make the strategy work in their 
communities. The most important thing I believe we must keep in focus 
is that the community policing strategy has worked to reduce crime in 
our country. Community policing as a strategy was possible because of 
the COPS program and the Federal resources offered to the local 
departments and agencies through this program. Local departments will 
be unable to continue this successful strategy.
    I cannot imagine that anyone here would want to give back the 
ground that we have won in the fight against crime. What we must keep 
in focus is the community policing strategy has worked to reduce crime 
in our country. The F.O.P., along with the rest of the law enforcement 
community, clearly recognizes the value of this program.
    For this reason, we will be working with Members of the House and 
Senate to not only continue our support of COPS, but to reauthorize the 
program.
    We strongly support your bill, Mr. Chairman, S. 924, the 
``PROTECTION Act,'' would reauthorize the COPS program through 2007 to 
hire and retain police officers, pay overtime and reimburse officers 
pursuing college and advance degrees to enhance their job skills as 
well as providing Federal money for new technology.
    The F.O.P. believes this legislation builds on a solid foundation 
of success. So few government programs work and so many do not, it is 
inexplicable to me that we would end a program that works! I would like 
to thank you, Mr. Chairman and Ranking Member Grassley for inviting me 
to participate in this hearing today. I would be pleased to answer any 
questions.

    Chairman Biden. Thank you very much, Steve. I appreciate 
it.
    Doctor?

 STATEMENT OF SOLOMON ZHAO, PROFESSOR, DEPARTMENT OF CRIMINAL 
            JUSTICE, UNIVERSITY OF NEBRASKA AT OMAHA

    Mr. Zhao. Thanks, Mr. Chairman. My name is Solomon Zhao. I 
am professor of criminal justice at University of Nebraska at 
Omaha.
    Today, I am honored to have the opportunity to share with 
you the major findings of a research project that my co-author, 
Dr. Quint Thurman, and I just recently finished.
    As you know, the crime rates have dropped significantly in 
most large U.S. cities since the mid-1990's. While there is 
considerable speculation about the causes of this decline, one 
explanation credits the recent implementation of community-
oriented policing funded principally through the Office of 
Community Oriented Policing Services, the COPS office, under 
the 1994 crime bill.
    Unfortunately, on a national level, prior to this study, 
the extent to which this is the case was largely unknown. This 
is due to the fact that much of the research is designed to 
assess the impact of the COPS program on crimes either limited 
to individual programs or individual cities.
    Chairman Biden. Let me make sure I understand that, 
Professor. You say the previous studies primarily focused on 
individual crimes or individual cities. Is that what you said?
    Mr. Zhao. Previous studies looking at the effect of COPS 
usually focused on one city like New York City--
    Chairman Biden. Got you. That is what I thought you said.
    Mr. Zhao. --why it is so successful, or a few cities or one 
program just like domestic violence.
    Chairman Biden. Or one program.
    Mr. Zhao. Yes.
    Chairman Biden. Thank you. I just wanted to make sure I 
understood what you said.
    Mr. Zhao. So this is the national study to cover all of 
these.
    Chairman Biden. Got you.
    Mr. Zhao. We examined the effect COPS office grants awarded 
to local law enforcement agencies between 1994 and 1998 had on 
the crime rates. The COPS office grants can be categorized into 
three general groups: hiring grants, innovative grants, and 
MORE grants.
    In the analysis, we looked at the relationship between the 
COPS office grants in 6,100 cities, accounting for a total 
population of over 145 million Americans between 1994 and 1999. 
These 6,100 cities are located in 2,680 counties, and there are 
only about a little bit over 3,000 counties in the United 
States. Two categories of crime rates are looked at. The 
violent crime rate include murder, rape, robbery, and 
aggravated assaults. The property crime rate includes burglary, 
larceny, and auto thefts.
    The analysis indicates that in the cities with greater than 
10,000 population, an increase in one dollar in grant funding 
per resident in the form of hiring grants lead to a 
corresponding decline of five violent crime incidents and about 
22 property crime incidents per 100,000 residents. Regarding 
innovative grants, a one-dollar increase in innovative grant 
funding contributed to 13 fewer violent crime incidents and 
about 45 property crime incidents per 100,000 population 
between 1995 and 1999.
    So here is an example. In a typical city with 100,000 
residents, if you invest $100,000--that means one person, one 
dollar--you are going to expect, in terms of innovative grants, 
there will be what leads to a decrease of 13 violent crime 
incidents and 45 property crime incidents.
    On the other side, the analysis of cities with population 
less than 10,000 reveals a different picture. Unlike larger 
cities, these findings show that the hiring grants are 
positively associated with violent crime reporting. That means 
this indicates that a one-dollar increase per resident in the 
form of hiring grants will lead to about one violent crime 
report and about nine property crime reports in these cities. 
So it is different between greater than 10,000 and less than 
10,000.
    Having said these findings, I have two primary 
observations. The first observation is that the crime reduction 
is not a unitary phenomenon in the United States. The 
difference between the two groups of cities is apparent with 
respect to their crime patterns over the 6-year period of time 
when national crime rates overall dropped significantly.
    Cities greater than 10,000 experienced a greater decrease 
in crime than smaller cities. In addition, the data indicate 
that COPS office hiring and innovative grants have contributed 
significantly to decreasing crime in these U.S. cities. 
According to the Uniform Crime Report, approximately 89 percent 
of police departments in the United States serve cities with 
populations greater than 10,000.
    Chairman Biden. So 89 percent, greater than 10,000.
    Mr. Zhao. Greater than 10,000.
    Chairman Biden. And one of the reasons why the rate is more 
productive, if you will, in cities over 10,000--
    Mr. Zhao. Yes, 10,000.
    Chairman Biden. --is they are the cities that take more 
advantage of the innovative grants as well. Is that correct?
    Mr. Zhao. Yes. Overall, innovatives have reduced 13 violent 
crime incidents.
    Chairman Biden. I got that, but do the cities under 10,000 
employ the innovative grant proposals as frequently as cities 
over 10,000 using those? Do you understand?
    Mr. Zhao. Yes. I think the cities less than 10,000, we do 
not find the innovative grants as significant.
    Chairman Biden. Okay. Thank you.
    Mr. Zhao. And the second observation is that findings show 
that COPS hiring grants are positively correlated with the 
crime reporting in cities with populations less than 10,000. So 
there has been very limited research on how police do their 
business in those small cities. Literally, I searched all of 
the literature. I found only two books about how small police 
agencies do fight against crime.
    One possible explanation for this relationship is that 
smaller cities may have fewer officers. The addition of one 
officer means a big percentage increase in their force. The 
average number of officers in those cities less than 10,000 is 
9.6. So, if you add one more body, that means one officer 
equals a 10-percent increase. This almost equals to hire about 
4,000 police officers to New York City Police.
    Chairman Biden. Exactly.
    Mr. Zhao. So, when you have one officer increase, they may 
be doing community policing, and the crime reporting by the 
citizens might increase. That would be a reasonable 
speculation. We have not checked into that yet, but that is a 
speculation.
    When I was presenting this at the Society of American 
Criminology, one professor came over and said it might be the 
case because in small communities--and when usually the 
sheriffs do not have graveyard shifts, it is the State police 
or the city police--it is the sheriff who took over on the 
graveyard shifts. So now you have the city police who have one 
more officer, and he takes the report. So the crime might 
increase, and she gave me that explanation. Those are the 
speculations.
    In conclusion, this is by far the most comprehensive 
statistical analysis to date regarding the COPS program. It 
examines the greatest number of cities across the longest 
length of time in a way that is far superior to any previous 
studies.
    I thank the chairman for inviting me to come here.
    [The prepared statement of Mr. Zhao follows.]

 Statement of Solomon Zhao, Professor, Department of Criminal Justice, 
                    University of Nebraska at Omaha

    Dear Chairman Biden and Fellow Senators:
    My name is Solomon Zhao, professor of Criminal Justice at 
University of Nebraska at Omaha. Today, I am honored to have the 
opportunity to share with you the major findings of a research project 
that my co-author, Dr. Quint Thurman, and I have recently finished.
    As you all know, crime rates have dropped significantly in most 
large U.S. cities since the mid-1990s. While there is considerable 
speculation about the origins of this decline, one explanation credits 
the recent implementation of community oriented policing funded 
principally through the Office of Community Oriented Policing Services 
(COPS) under the 1994 Crime Bill. The direct involvement of the COPS 
Office in providing funding for over 100,000 community police officers 
may have significantly contributed to this crime decrease. 
Unfortunately, on a national level, prior to this study the extent to 
which this is the case was largely unknown. This is due to the fact 
that much of the research designed to assess the impact of COPS 
programs on crime is either limited to individual programs or to 
individual cities.
    We examined the effect COPS Office grants awarded to local law 
enforcement agencies between 1994 and 1998 had on crime rates. COPS 
Office grants can be categorized into three general groups: hiring 
grants, innovative grants, and MORE grants. Hiring grants are designed 
to directly assist local law enforcement in the hiring of community 
police offices. Innovative grants fund specialized programs targeted at 
specific jurisdictions and/or categories of crime. The last category of 
grants is the Making Officer Redeployment Effective (MORE) grant 
program that provides funding to law enforcement agencies to acquire 
new technology and civilian personnel.
    In the analysis, we examine the relationship between COPS Office 
grants in 6,100 cities, accounting for a total population of over 145 
million Americans between 1994 and 1999. These 6,100 cities are located 
in 2,680 counties in the United States. Two categories of crime rates 
are examined. The violent crime rates include murder, rape, robbery, 
and aggravated assault. Property crime rate includes burglary, larceny, 
and auto theft.
    The analyses indicate that in cities with greater than 10,000 
population, an increase in one dollar in grant funding per resident in 
the form of hiring grants resulted in a corresponding decline of 5 
violent crime incidents and about 22 property crime incidents per 
100,000 residents. Regarding innovative grants, a one-dollar increase 
in innovative grant funding contributed to 13 fewer violent crime 
incidents and about 45 property crime incidents per 100,000 population 
between 1995 and 1999.\1\
---------------------------------------------------------------------------
    \1\ For example, in a typical city with 100,000 in innovative 
grants (one-dollar per resident) will lead to a decrease of thirteen 
violent crime instances and forth-five property crime instances.
---------------------------------------------------------------------------
    On the other side, analysis of cities with population less than 
10,000 reveals a different picture. Unlike in larger cities, these 
findings show that hiring grants are positively associated with violent 
crime reporting. This indicates that a one-dollar increase per 
residents in the form of a hiring grant leads to an increase of about 1 
violent crime reports and about 9 property crime reports in these 
cities.
    Having highlighted the findings, I have two primary observations. 
The first observation is that crime reduction is not a unitary 
phenomenon. The difference between the two groups of cities is apparent 
with respect to their crime patterns over the six-year period of time 
when national crime rates overall dropped substantially. Cities greater 
than 10,000 experienced a greater decrease in crime than smaller 
cities. In addition, the data indicate that COPS Office hiring and 
innovative grants have contributed significantly to decreasing crime in 
these U.S. cities with populations greater than 10,000 people. 
According to the Uniform Crime Report, approximately 89% of police 
departments in the United States serve cities with populations greater 
than 10,000.
    The second observation is that findings also show that COPS hiring 
grants are positively correlated with the crime reporting in cities 
with populations less than 10,000. There has been very limited research 
on how police officers in these small cities fight crime. One possible 
explanation for this relationship is that smaller cities have many 
fewer officers, therefore, the addition of even one officer can mean a 
substantial increase in department size that can significantly affect 
citizen crime reporting. The average number of sworn officers for 
cities between 1,000 and 10,000 was 9.6 in this sample. It is 
reasonable to speculate that in these smaller cities, this additional 
officer may be involved with a variety of community policing 
activities. This increased officer presence may encourage citizens to 
increase crime reporting which can substantially increase the crime 
rate in these small communities.
    In conclusion, this is by far the most comprehensive statistical 
analysis to date regarding the COPS program. It examines the greatest 
number of cities across the longest length of time in a way that is far 
superior to any previous studies. The COPS program appears to have 
played an important role in the reduction in violent and property crime 
for the vast majority of the population of the United States.

    Chairman Biden. Well, thank you, and thank you for your 
undertaking.
    Mr. Muhlhauser.

  STATEMENT OF DAVID MUHLHAUSEN, POLICY ANALYST, THE HERITAGE 
                  FOUNDATION, WASHINGTON, D.C.

    Mr. Muhlhausen. Mr. Chairman.
    Chairman Biden. Muhlhausen. I'm sorry. You can call me 
``Bidden'' if you want. I apologize. I mispronounced your name 
twice, and I apologize.
    Mr. Muhlhausen. Don't worry about it. I am used to having 
my name mispronounced.
    Chairman Biden. No, but I do not like it when mine is.
    Mr. Muhlhausen. Just for the record, I would like to remind 
the Committee that my name is David Muhlhausen, and I am a 
policy analyst at The Heritage Foundation specializing in 
program evaluation.
    In beginning my testimony, I must stress that the views I 
express are entirely my own and should not be construed as 
representing any official position of The Heritage Foundation. 
With that understanding, I am honored to be asked by the 
Committee on the Judiciary, Subcommittee on Crime and Drugs, to 
testify today on the Community Oriented Policing Services 
program.
    The September 11th terrorist attacks have quickly reshaped 
Washington's priorities to efforts that will strengthen the 
Government's ability to protect Americans. Congress should 
shift dollars away from programs that are wasteful, unproven, 
or demonstrably ineffective, and instead fund those that are 
central to the Federal Government's core mission.
    After 8 years and about $9 million, COPS qualifies as such 
a program that is ineffective, wasteful, and not providing 
services that are the testimony of the Federal Government. As 
my written testimony provides in greater detail, the COPS 
program has done little to reduce violent crime, and it will 
likely never add 100,000 additional officers, as promised.
    Some observers claim that the COPS program is a proven 
success because crime has declined every year since the 
program's creation. This assertion is very misleading. The 
Nation's violent crime rate began to decline in 1991, 3 years 
before the program was created. Not only did COPS not start the 
national drop in crime, but publicly available research by The 
Heritage Foundation indicates that since its inception, COPS 
has done little to reduce crime.
    We examined the effects of COPS grants on violent crime 
rates in 752 counties from 1995 to 1998. I am submitting a copy 
of this report to the community for the record.
    After accounting for socioeconomic and other factors, the 
COPS hiring and redeployment grants, its primary components, 
failed to show a statistically measurable effect on reducing 
violent crime rates. In contrast, the Heritage analysis found 
that COPS hiring grants targeted on reducing specific problems, 
like domestic violence, youth firearm violence, and gangs, are 
somewhat effective in reducing violent crime. Narrowly focused 
COPS grants are intended to help law enforcement agencies 
tackle specific problems, while the COPS hiring and 
redeployment grants simply pay for the operational costs and, 
thus, less likely to target specific problems.
    If Congress insists on keeping the COPS program, the 
program needs will be radically transformed to hold localities 
accountable to the taxpayer, while boosting flexibility which 
the current program lacks.
    First, before the COPS grants are awarded, applicants must 
be required to develop a clear plan on how they intend to 
prevent crime.
    Second, a system to measure and evaluate the effectiveness 
of COPS grants must be in place before the awarding of funds.
    Third, COPS-funded activities must be evaluated for their 
effectiveness in reducing crime.
    To summarize these steps, device a plan that includes 
outcome measures, implement the plan, then evaluate the plan. 
Plan, implement, evaluate. If grantees cannot take these 
responsible steps, then they should be barred from Federal 
funding.
    To improve flexibility, Congress must recognize that 
problems in Des Moines, Iowa, and Wilmington, Delaware, can be 
very different from problems in large urban cities. Let the 
localities decide what actions need to be implemented to 
address their problems, but as a grant condition, the grantee 
must develop a strategic plan that targets crime-risk factors 
in their community. This plan must include the ability to 
measure the plant's success. As long grantees are not held 
accountable for their use of COPS funds, Federal handouts will 
continue to produce ineffective results.
    I will conclude by offering a few comments on the strengths 
of the Heritage study. Our study analyzes the relationship 
between COPS funding and crime at the county level. The county-
level analysis allows researchers to include local law 
enforcement efforts that help explain the change in crime. If 
the Heritage study included only Federal funds, then the true 
impact of COPS on crime would be overstated, and the all-
important role of local police spending would be excluded.
    Mr. Chairman, with your permission, I am submitting my 
written statement for the record along with two of Heritage 
Foundation's studies.
    Thank you.
    [The prepared statement of Mr. Muhlhausen follows:]
    [Additional material is being retained in the Committee 
files.]

   Statement of David Muhlhausen, Policy Analyst, Heritage Foundation

    Mr. Chairman, my name is David Muhlhausen. I am a policy analyst at 
the Heritage Foundation specializing in program evaluation. In 
beginning my testimony I must stress that the views I express are 
entirely my own, and should not be construed as representing any 
official position of The Heritage Foundation. With that understanding, 
I am honored to be asked by the Committee on the Judiciary, 
Subcommittee on Crime and Drugs, to testify today on the Community 
Oriented Policing Services grant program.
         Misplaced Priorities: The Failure of the COPS Program
    The September 11 terrorist attacks at the World Trade Center and 
the Pentagon have quickly reshaped Washington's priorities, 
particularly regarding the Department of Justice (DOJ), to efforts that 
will strengthen the government's ability to protect Americans. Even in 
the best of times, common sense dictates sound budgeting of 
government's resources. Today, with our nation at war, the 
Administration and Congress should redouble its efforts to shift 
dollars away from programs that are wasteful, unproven, or demonstrably 
ineffective, and instead fund those that are central to the federal 
government's core mission.
    A detailed study by The Heritage Foundation shows that after eight 
years and about $9 billion, the Office of Community Oriented Policing 
Services qualifies as a program that is wasteful, ineffective, and is 
not providing services that are the responsibility of the federal 
government. As I will show in greater detail in my testimony, the COPS 
program has done little to reduce violent crime, and it will likely 
never add 100,000 additional officers as promised. With new and urgent 
national priorities, responsible budgeting requires the elimination of 
the COPS program and a transfer of its funds to more critical 
Department of Justice activities.
                    Failure to Reduce Violent Crime.
    Some observers claim that the COPS program is a proven success 
because crime has declined every year since the program's creation.\1\ 
This assertion is very misleading. The nation's violent crime rate 
began to decline in 1991--three years before the program was created. 
Not only did COPS not start the national drop in crime, but publicly 
available research by the Heritage Foundation Center for Data Analysis 
indicates that since its inception, COPS has done little to reduce 
crime.
---------------------------------------------------------------------------
    \1\ Senator Joseph R. Biden, Jr., ``Bush: Don't Cut COPS,'' The 
Baltimore Sun, April 16, 2001, p. A7.
---------------------------------------------------------------------------
    The crime policy arena is filled with assertions about what is or 
is not effective in reducing crime. Many of these assertions are based 
solely on anecdotal evidence, since all too often there is a lack of 
empirical research with which to judge the accuracy of specific claims. 
For instance, when a city receives COPS funding and crime 
simultaneously declines, it is easy to assert that COPS caused the 
decline.
    Observing that the crime rates dropped when COPS grants flowed to a 
particular community is not conclusive evidence that the grants helped 
to decrease crime. As the Congressional Budget Office has noted, 
socioeconomic factors need to be considered in understanding why crime 
rates change.\2\
---------------------------------------------------------------------------
    \2\ Congressional Budget Office, Budget Options, Appendix A, 
February 2001, at http://www.cbo.gov/showdoc.cfm?index=2731&sequence=33 
(April 16, 2001).
---------------------------------------------------------------------------
    Assertions about the effectiveness of COPS grants are therefore not 
credible if factors that influence crime are ignored in the analysis. 
Anecdotal examples of decreasing crime rates in a community that 
received the COPS grants could be offset by other examples of 
communities that received COPS grants and experienced increases in 
crime. For example, from 1994 to 1998, Delaware received almost $20 
million in COPS grants, and, according to the Federal Bureau of 
Investigation, its violent crime rate increased by 35.9 percent.\3\
---------------------------------------------------------------------------
    \3\ Calculations based on data from U.S. Department of Justice, 
Federal Bureau of Investigation, Crime in the United States 1994 
(Washington, D.C., 1995), p. 69, and Crime in the United States 1998 
(Washington, D.C., 1999), p. 75.
---------------------------------------------------------------------------
    One should not conclude that COPS grants caused the increase in 
crime, without accounting for other factors that can affect crime. The 
statistical approach used by The Heritage Foundation's Center for Data 
Analysis (CDA) includes control variables and allows for the inclusion 
of many cases in order to test competing hypotheses. CDA Analysts 
examined the effects of COPS grants on violent crime rates in 752 
counties from 1995 to 1998.\4\ I am submitting a copy of this report to 
the subcommittee for the record. After accounting for socioeconomic 
factors, the COPS hiring and redeployment grants--its primary 
components--failed to show a statistically measurable effect in 
reducing violent crime rates at the county level. The CDA analysis 
suggests that simply continuing funding for the COPS program will be 
ineffective in reducing violent crime. Previous research indicates that 
there are at least two reasons for this:
---------------------------------------------------------------------------
    \4\ David B. Muhlhausen, ``Do Community Oriented Policing Services 
Grants Affect Violent Crime Rates? '' Heritage Foundation Center for 
Data Analysis Report No. CDA01-05, May 25, 2002.
---------------------------------------------------------------------------
    Merely paying for the operational expenses of law enforcement 
agencies without a clear crime-fighting objective will continue to be 
ineffective in reducing violent crime.
    The actual number of officers funded by these grants and added to 
the street will be substantially less than the funding level would 
indicate, and
    The current program fails to give law enforcement agencies the 
flexibility to decide how funds should be spend.
             Promoting Effective Crime-Fighting Strategies.
    In contrast to hiring and redeployment grants, which were not shown 
to be effective, the CDA analysis found that COPS grants which were 
targeted on reducing specific problems--like domestic violence, youth 
firearm violence, and gangs--were somewhat effective in reducing 
violent crime.\5\ Narrowly focused COPS grants are intended to help law 
enforcement agencies tackle specific problems, while COPS hiring and 
redeployment grants are intended simply to pay for operational costs 
and thus are less likely to target specific problems.
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------
    According to a 1997 Justice Department review of crime-fighting 
programs, entitled Preventing Crime: What Works, What Doesn't, What's 
Promising, community policing with no clear strategy for targeting 
crime-risk factors has been ineffective in reducing crime.\6\ Research 
indicates that targeting crime-risk factors--such as high-crime ``hot 
spots'' and arresting serious repeat offenders--enables the police to 
reduce crime.\7\ ``While the COPS Program language has stressed a 
community policing approach,'' the report states, ``there is no 
evidence that community policing per se reduces crime without a clear 
focus on a crime risk factor objective.'' \8\
---------------------------------------------------------------------------
    \6\ Lawrence W. Sherman, ``Policing from Crime Prevention,'' in 
Lawrence W. Sherman, Denise Gottfredson, Doris MacKenzie, John Eck, 
Peter Reuter, and Shawn Bushway, Preventing Crime: What Works, What 
Doesn't, What's Promising; A Report to the U.S. Congress (Washington, 
D.C.: U.S. Department of Justice, Office of Justice Programs, February 
1997), p. 37.
    \7\ Ibid.
    \8\ Ibid., pp. 41-42.
---------------------------------------------------------------------------
    Jersey City, New Jersey and Boston, Massachusetts provide us with 
examples where developing a clear plan that targets crime-risk factors 
can have a positive impact. A 1999 randomized study headed by Anthony 
Braga at Harvard University found that in Jersey City neighborhoods 
where specific plans were developed to reduce crime, such as aggressive 
order maintenance and changes to the physical environment, these 
neighborhoods experienced significant reductions in crime.\9\
---------------------------------------------------------------------------
    \9\ Anthony A. Braga, David L. Weisburd, Elin J. Waring, Lorraine 
Green Mazerolle, William Spelman, and Francis Gajewski, ``Problem-
Oriented Policing in Violent Crime Places: A Randomized Controlled 
Experiment,'' Criminology, Vol. 37, No. 3 (1999), pp. 541-580.
---------------------------------------------------------------------------
    A 2001 study by Anthony Braga and his colleagues found that 
Operation Ceasefire could be credited for the dramatic drop in the 
number of Boston's youth homicides.\10\ Operation Ceasefire 
successfully reduced youth homicides by targeting a small number of 
chronically offending youth gang members. Working with probation and 
parole officers and community groups, law enforcement identified 
violent gang members and told them that violence would no longer be 
tolerated. Gang members were promised that if they continued their 
violence, then their action would provoke an immediate and intense 
response, often ending in a prison term. After gang members were caught 
and prosecuted, the task force returned to the gangs and said ``this 
gang did violence, we responded with the following actions and here is 
how to prevent anything similar from happening to you.'' \11\ The 
message stuck and youth homicides dropped.
---------------------------------------------------------------------------
    \10\ Anthony A. Braga, David M. Kennedy, Elin J. Waring, and Anne 
Morrison Piehl, ``Problem-Oriented Policing, Deterrence, and Youth 
Violence: An Evaluation of Boston's Operation Ceasefire,'' Journal of 
Research in Crime and Delinquency, Vol. 38, No. 3 (2001), pp. 195-225
    \11\ Ibid., p. 200.
---------------------------------------------------------------------------
    What we have learned from Boston and Jersey City is that the police 
can make a difference. Research indicates that developing a clear plan 
to target resources at a problem can reduce crime. Simply spending more 
federal dollars to put more officers on the streets will be less 
effective, than targeting resources wisely.
    Now, I turn to the COPS program's hiring objective.
    Less Than 100,000 New COPS Officers.
    Despite recent claims, the COPS program has not put 100,000 
additional officers on America's streets since it began in 1994. A 2000 
study by The Heritage Foundation found that by 1998, only 39,617 
officers were added to the streets above the historical hiring trend 
from 1975 to 1993.\12\ A copy of this report is included with my 
testimony. Even in 1999, the U.S. Department of Justice's own Office of 
Inspector General doubted that the goal could be reached; it estimated 
that, at most, only 59,765 additional officers would be added by the 
end of FY 2000.\13\ In its 2000 National Evaluation of the COPS 
Program, a report funded by the COPS Office and published by the 
Justice Department, the Urban Institute estimated under an optimistic 
scenario that the number of officers added to the street by COPS would 
peak at 57,175 by 2001.\14\
---------------------------------------------------------------------------
    \12\ Gareth Davis, David B. Muhlhausen, Dexter Ingram, Ralph 
Rector, ``The Facts About COPS: A Performance Overview of the Community 
Oriented Policing Services Program,'' Heritage Foundation Center for 
Data Analysis Report No. CDA00-10, September 25, 2000.
    \13\ U.S. Department of Justice, Office of Inspector General, 
Special Report: Police Hiring and Redeployment Grants, Summary of Audit 
Findings and Recommendations, Report No. 99-14, April 1999.
    \14\ U.S. Department of Justice, Office of Justice Programs, 
National Evaluation of the COPS Program, 200, p. 163.
---------------------------------------------------------------------------
    The Justice Department's Office of Inspector General found in 1999 
that the program had counted officers as COPS-funded even when the law 
enforcement agencies receiving the grants had rejected the grants or 
had failed to hire all of the officers funded.\15\ For example, COPS 
officials claim that the Spokane Police Department had hired 56 new 
officers based on three COPS grants worth $4.2 million, but the Spokane 
Police Department said that it had hired only 25 officers.\16\ 
Nevertheless, COPS officials counted the 31 ``missing'' officers in the 
total number of additional officers it supposedly put on the streets.
---------------------------------------------------------------------------
    \15\ U.S. Department of Justice, Office of Inspector General, 
Special Report: Police Hiring and Redeployment Grants, Summary of Audit 
Findings and Recommendations.
    \16\ U.S. Department of Justice, Community Oriented Policing 
Services, at http://www.usdoj.gov/cops/foia/foia--errhtm (October 11, 
2000). See the Internet link for Washington State; and Spolkane Police 
Department at http://www.spokanepolice.org/total--cops--funding.htm 
(October 11, 2000).
---------------------------------------------------------------------------
    Making Officer Redeployment Effective (MORE) grants provide 
technology and civilian salaries to move officers from administrative 
assignments to patrolling the streets. The Justice Department's Office 
of Inspector General has found that some MORE grant recipients have 
been unable to demonstrate that the grants lead to the redeployment of 
officers to the streets.\17\ For instance, when the inspector general 
asked the Metropolitan Police Department of the District of Columbia to 
provide a list of the officers redepolyed to the street with almost $11 
million in COPS funding, one officer was deceased, 10 officers were 
retired, and 13 were no longer working for the department.\18\
---------------------------------------------------------------------------
    \17\ U.S. Department of Justice, Office of Inspector General, 
Special Report: Police Hiring and Redeployment Grants, Summary of Audit 
Findings and Recommendations.
    \18\ U.S. Department of Justice, Office of Inspector General, 
Office of Community Oriented Policing Services Grants to the 
Metropolitan Police Department, District of Columbia, Executive 
Summary, (GR-30-01-003), December 29, 200, at http://www.usdoj.gov/ori/
copsumma/g3001003.htm (November 30, 2001).
---------------------------------------------------------------------------
    Failure to Provide Flexibility. While the Heritage Foundation 
research has not specifically addressed the issue of flexibility, 
Congress must recognize that problems in Des Moines, Iowa and 
Wilmington, Delaware can be very different from problems in large urban 
cities. Communities may not need to hire additional officers or 
purchase technology. Instead, training officers on how to replicate 
successful tactics used by other police departments may be more 
effective. Localities need the ability to decide what actions need to 
be implemented to address their problems.
                      Reforming COPS: What To Do.
    If Congress insists on keeping COPS, the program needs to be 
radically transformed to hold localities accountable to the taxpayer, 
while boosting flexibility, which the current program lacks.
    First, before COPS grants are awarded, applicants must be required 
to develop a clear plan on how they intend to use the funds to prevent 
crime. The COPS program should give the grantee the flexibility to 
decide how the grant funds should be used. Second, a system to measure 
and evaluate the effectiveness of COPS grants must be in place before 
the awarding of funds. Third, after the funds have been spent, the COPS 
funded activities must be evaluated for their effectiveness in reducing 
crime.
    To summarize these steps: Devise a plan that includes measuring the 
outcomes of the plan. Implement the plan. Then evaluate the program. 
Plan. Implement. Evaluate. If grantees cannot take these responsible 
steps, then they should be barred from federal funding.
    Congressional reform to foster accountability should begin with the 
application process. The ease with which the COPS program has 
distributed grants has created a lack of accountability. The current 
system allows grantees to gain easy access to cash, but they are not 
required deploy officers in activities that have been empirically 
demonstrated to reduce crime.
    To demonstrate my point, all you have to do is look at the 
application forms. An application form used for 2000 UHP grants is only 
four pages long.\19\ No where on the form does the grantee have to 
explain how the officer is going to be used effectively. Other grant 
forms contain multiple choice checklists for how the grants will be 
used.\20\ Checking boxes is no substitute for a clear and focused plan 
to reduce crime.In conclusion, I will focus on reform efforts before 
Congress.
---------------------------------------------------------------------------
    \19\ This application was obtained from http;//www.usdoj.gov/cops/
pdf/gpa/uhp/uhp--pdfs/e22k0060.pdf (December 1, 2001).
    \20\ This application was obtained from http://www.usdoj.gov/cops/
pdf/toolbos/comforms/cp--information--worksheet.pdf (December 1, 2001).
---------------------------------------------------------------------------
                               Conclusion
    Based on the Heritage Foundation study of the COPS program and 
similar efforts, Senator Biden's bill to reauthorize the COPS program, 
S. 924, will do little to improve the program. There are no provisions 
in the bill to increase accountability and flexibility. Under the bill, 
up to 50 percent of hiring funds will be reserved for grantees whose 
original grants have expired. The bill creates a new federal obligation 
to fund local officers' salaries--tantamount to establishing a new 
federal entitlement for localities.
    If agencies cannot retain COPS funded officers as required by their 
original grants, then this problem clearly indicates that the grantees 
failed to develop a plan for officer retention. COPS was originally 
intended to be a helping hand, not an everlasting funding source. If 
grantees fail to follow the rules of the grants, then they should not 
be allowed to permanently drain funds from taxpayers.
    For these reasons, S. 924 will fail to improve upon the COPS 
program's already limited ability to be an effective crime-fighting 
strategy.
    The Heritage Foundation is a public policy, research, and 
educational organization operating under Section 501(C)(3). It is 
privately supported, and receives no funds from any government at any 
level, nor does it perform any government or other contract work.
    The Heritage Foundation is the most broadly supported think tank in 
the United States. During 2000, it had more than 150,297 individual, 
foundation, and corporate supporters representing every state in the 
U.S. Its 1999 contributions came from the following sources:

 
 
 
                               Government                    0.0%
                              Individuals                   51.2%
                              Foundations                   17.0%
                             Corporations                    3.2%
                        Investment Income                   25.9%
              Publication Sales and Other                    2.7%
 


    The top five corporate givers provided The Heritage Foundation with 
less than 1.6% of its 2000 income. The Heritage Foundation's books are 
audited annually by the national accounting firm of Deloitte & Touche. 
A list of major donors is available from The Heritage Foundation upon 
request.
    Members of The Heritage Foundation staff testify as individuals 
discussing their own independent research. The views expressed are 
their own, and do not reflect an institutional position for The 
Heritage Foundation or its board of trustees.

    Chairman Biden. Thank you very much.
    I will try to get you out of here in the next 25 minutes or 
so, but I do have some questions, and if any of you have planes 
or trains to catch, let me know and I will go to you first. 
Does anybody have a particular constraint at the moment?
    All right. Let me begin where we just ended. I read with 
great interest, and this is one of those things that I guess 
for parochial reasons I actually do myself read these things, 
as the guys behind you are nodding their head they know that I 
have spent more time on this.
    At any rate, The Heritage Foundation studies, I have two 
things I would like you to respond to, and then maybe, Dr. 
Zhao, you could respond or anyone else. You looked at counties, 
752 counties, to determine whether the COPS grants had an 
impact on crime rates. I understand the rationale of using the 
counties was that COPS grants to cities would be captured in 
this analysis.
    Mr. Muhlhausen. yes, sir.
    Chairman Biden. Yet, an awful lot of those counties--one of 
the criticisms of your study has been that they have an 
unreasonable assumption, and that is that particularly in 
counties where COPS funded only a small number of the cities, 
in some cases, as little as one city, it does not give you the 
reading that it is accurate.
    For example, the example they give is Susquehanna County, 
Pennsylvania, where there are 12 law enforcement agencies that 
fight crime. COPS has funded one of those agencies in Montrose, 
Pennsylvania, with just one officer. Yet, you use Susquehanna 
County to determine if COPS grants were effective in lowering 
the crime rate in the county as a whole.
    The other criticism--and I will ask you to respond to both 
because I am sure you have heard them before--is that your 
analysis--not yours personally, but The Heritage Foundation's 
analysis is further flawed by its reliance on arrest data 
rather than crime data; that is, only listing those cases where 
there was an arrest made as opposed to where there was a crime 
committed, that it measures only crimes that result in arrest, 
not crimes that are known to the police, but do not result in 
arrest, and the crimes known to police are a better indicator 
of actual crime. How do you respond to those two?
    Mr. Muhlhausen. Senator Biden, I want to take up your 
second statement. Our study, the dependent variable was 
reported offenses by police departments. Arrests were not 
included in the dependent variable. So our study shows that the 
COPS hiring grants and redeployment grants had no impact on 
crime rates, official offenses reported to the police.
    We did use as a variable to account for changes in crime 
rates, arrests, but we dropped that variable noting that there 
are criticisms of it, and it still did not change our results. 
The hiring and redeployment grants--
    Chairman Biden. Oh, I see. I am sorry. I thought you did 
not change that. So you went back, in effect, based on the 
criticism, and reassessed your judgment based upon the actual 
reported crimes?
    Mr. Muhlhausen. Actually, the original paper started with 
official offenses reported to the FBI.
    Chairman Biden. Got you.
    Mr. Muhlhausen. Uniform Crime Report data.
    In our analysis, an entire paper, nothing has changed in 
the paper, nothing that I have stated. We have not changed the 
paper since its official publication date.
    We ran an analysis and we found that, actually, when you 
control for the percentage of people or the percentage of 
offenses that ended in an arrest, it was effective in reducing 
crime.
    What some people say were methodological reasons, you 
cannot include that as a variable, not as a dependent variable, 
as an independent variable. So, later on in the record, what is 
in the report, we dropped that variable, and the findings still 
do not change.
    Chairman Biden. Okay.
    Mr. Muhlhausen. The hiring grants and the MORE grants were 
ineffective.
    Chairman Biden. Okay. How about the first one, the choice 
of counties?
    Mr. Muhlhausen. When we got together a while ago and 
decided to do this study, we had to look at the data and what 
was available, and we wanted to look at two questions. We 
wanted to evaluate the COPS program, its success, but we also 
wanted to know what impact, what role does local law 
enforcement expenditures play in law enforcement. So the only 
data that we knew of that we could find that controlled for, 
that we could include that accounted for local law enforcement 
expenditures was on the county level. So we aggregated the COPS 
funding data to the county level and did the analysis because 
we want to control for factors that influence crime and, a very 
important measure, a way to control or account for what affects 
crime is looking at State and local law enforcement 
expenditures. We just did not want to depend on the Federal 
Government.
    Chairman Biden. Now, the State and local law enforcement 
expenditures, did they account for reductions in crime at all?
    Mr. Muhlhausen. Yes, they did.
    Chairman Biden. They did.
    Again, I am thinking like a cop. Did you ever think that 
maybe the States would not have increased their local law 
enforcement expenditures had the Federal Government not put the 
money up? Have you looked at the past experience where when we 
did not, they did not?
    Mr. Muhlhausen. Well, from reports of the GAO and the 
Inspector General's office, there are not cases where law 
enforcement agencies used COPS funding to supplant. So, instead 
of hiring--
    Chairman Biden. No, that is not what I am talking about. By 
the way, they took 1.1 percent of the most egregious places, or 
1.5. Plus, they acknowledged that it was in the first 3 years 
of the program and a lot of other things, but let's stipulate 
that that is correct.
    Move beyond that. I am asking the broader question. Is 
there any correlation between the amount of money that the 
Federal Government has put into local law enforcement efforts 
through the COPS program and the willingness of the local 
agencies to increase local funding for law enforcement?
    Mr. Muhlhausen. I am not aware of any studies.
    Chairman Biden. Okay. I do not have a study, but just as a 
practitioner of the process, I have found that there is very 
seldom a case where many police departments in the country and 
local law enforcement agencies--and I have no data to support 
this under the anecdotal--has made a significant increase in 
the allocation of local tax dollars to law enforcement, absent 
a circumstance where the Federal Government has come in and 
made a commitment and effectively prime the pump to be able to 
do that, in large part, because this is fungible money, but 
also it sets the stage.
    For example, one of the reasons we set--and you can comment 
on this, and I have no data for this. My instinct told me--and 
your study would suggest I am wrong--in 1994 that the reason 
why we made this conditional and made it available by having 
the law enforcement agencies being able to apply is--again, 
thinking like a cop--most chiefs of police were more popular 
than mayors. When the chief comes in and says to the city 
council, ``By the way, there is Federal money out here. If you 
put up two dollars, they will put up one dollar,'' it makes it 
awful hard when the public wants something done about crime for 
the mayor to say, ``No, no. We are not going to do that.''
    Conversely, if you come in and there is either just flat 
Federal money or no Federal money, it makes it very much harder 
for the chief to make the case to the mayor or the county 
executive that, ``By the way, we need more cops, and the way to 
do it without raising taxes a lot is cut the money for parks or 
cut the money for public health or cut the money for prisons or 
cut the money for whatever.''
    So I would be interested in just your instinct, but, also, 
maybe somebody will do a study some day that ought to be able 
to have control variables here to determine whether when the 
Federal money has gone in, has there been an impact on local 
officials making the decision to put more local money in, or, 
conversely, when there is no Federal money in, do local 
officials come forward and increase spending.
    My recollection is, prior to the passage of this bill, the 
largest 20 municipalities in the United States of America, 
although the crime rate went up multi-fold, there was a total 
increase of only 1.1 percent in the total number of police 
officers in those 20 cities over the previous 10 years. Yet, 
when we, in fact, came in with the crime bill in the COPS 
program, those cities--and I do not have hard data. It would be 
easy to assemble it. But those cities, in addition to the COPS 
money that came in, put a larger percentage of their local 
budgets into local law enforcement as well, but I may be wrong 
about that. It would be interesting for someone at Heritage or 
somewhere else to take a look at that to see if that is 
correct.
    Mr. Muhlhausen. We could meet at a later date, and our 
staff--we can discuss it and maybe we could do something for 
you.
    Chairman Biden. And maybe you could, for the record, submit 
something. Again, I am not being a wise guy here. If I am wrong 
about this, the one thing I do not want to do is to be wasting 
money. If I am wrong about it, there are other ways we can deal 
with law enforcement, if I am wrong.
    Doctor, would you comment on the assertions? I mean, how 
could your study be so different than the Heritage study?
    Mr. Zhao. I think the major difference is that we are 
looking at the cities and they are looking at the counties, 
but, actually, the COPS funding goes to the city. It does not 
go to the county.
    What I am concerned about here is that only 60 percent of 
the cities in the counties, at the county level in The Heritage 
Foundation, actually received COPS funding. The other 40 
percent are non-funded agencies.
    I am more concerned about that 40 percent for two reasons. 
The first reason is those are small agencies, not bigger ones, 
usually. In our analysis, we noticed the crime drop in America, 
a difference from greater than 10,000 and less than 10,000. So, 
for greater than 10,000, there is a 22-percent drop of violent 
crime from 1994 to 1999, but when you look at less than 10,000, 
actually, the crime drops from 1994 to 1996 and then it leveled 
off, an increase a little bit, then level. So it is a different 
pattern. So, when you include those small agencies in the 
analysis, it is not accurate in that way.
    Second, particularly, the problem for those less than, in 
our analysis, we looked at the greater-than-10,000, 1,000, less 
than 10,000, that group. We have a reason. There is a city 
called Lakeview, Colorado. At first, one would look at the data 
and we would say we can look from New York City, 7 million, to 
Lakeview, Colorado, 12 residents. It is a city. I did not find 
it on the map.
    Chairman Biden. Did you say 12 residents?
    Mr. Zhao. I said 12 residents--11 residents.
    Chairman Biden. And want a new cop.
    Mr. Zhao. Yes, in Lakeview.
    So we were excited. We said that it almost covered the 
whole range, all the cities. In 1996, they did not report any 
crime. In 1997, they reported 12. Okay. Think about that 12. 
When we talk about crime rates, we talk about incidents per 
100,000. So, 12 divided by 11, it is 1.1, times 100,000.
    Chairman Biden. That is a lot of crime.
    Mr. Zhao. It is 87 percent--87 times more than New York 
City.
    Chairman Biden. Well, I will tell you what, I do not want 
to live in that small town in Colorado.
    Mr. Zhao. It could be an error.
    Chairman Biden. I do not want to raise my kids in that 
town.
    Mr. Zhao. It could be an error. It could be a reporting 
error.
    Chairman Biden. No, no. I understand your point.
    Mr. Zhao. Yes.
    Chairman Biden. I think the point is well taken.
    Mr. Zhao. So the data estimation is inflated.
    Chairman Biden. Yes.
    Mr. Zhao. So that is why we decided to get rid of any city 
less than 1,000 because it is just not accurate. Just remember 
that for cities. If you have 20 residents in a city, one crime 
rate, you surpass New York.
    Chairman Biden. One crime.
    Mr. Zhao. One crime.
    Chairman Biden. One crime, you surpass New York.
    Mr. Zhao. You surpass New York. It would be 1 out of 20.
    Chairman Biden. Let me ask you--and then I want to get to 
the officers here, or the policemen. Mr. Muhlhausen, do you 
think The Heritage Foundation study would have concluded--and 
it may not. It may be an unfair question to ask, and if it is, 
do not answer it and tell me.
    Mr. Muhlhausen. I can answer it.
    Chairman Biden. Do you think that if you just took the top, 
the 50 largest cities in America, and did the same study that 
you would reach the same result, that it would be that there 
was no impact, positive impact by the COPS program?
    Mr. Muhlhausen. As my biography has not been discussed, I 
am a Ph.D. student at the University of Maryland-Baltimore 
County, and I am doing my dissertation on almost 60 large 
cities across the United States. I am going to look into that 
question, and I am going to let the numbers fall where they be.
    Chairman Biden. So you do not know. The straightforward 
answer is you do not have enough data to know the answer.
    Mr. Muhlhausen. I had the data. I just have not been able 
to analyze it.
    Chairman Biden. That is what I meant.
    Mr. Muhlhausen. I am in the process.
    Chairman Biden. I am not trying to play a game with you. At 
any rate, I got it.
    Let me proceed with some of the questions I have for my 
colleagues. Let me go back to you, Sheriff. You indicated to me 
that there were some improvements that you would like to see 
that could be made in the COPS program that would help you the 
most.
    By the way, before I forget, one of the assertions made, 
generally, when there are criticisms of the COP program is--and 
The Heritage Foundation and some others have made it as well, I 
think. I think Heritage has. That where the money goes is not 
where it is most needed. It does not necessarily relate to the 
money for the COPS program, whether it is technology or a 
badge. It may go to a place where it could be better used going 
someplace else.
    One of the things I found interesting was--and that 
criticism has been brought up a number of times by some of my 
colleagues to me as well--is that--correct me if I am wrong, 
staff. I cannot find it now. But my recollection tells me that 
where the cities--the 1 percent of the cities and 
municipalities that had the highest murder rate and the highest 
rate of violent crime got something like 30-some percent of all 
of the COPS money.
    Now, I will submit that for the record, to be precise, but 
one might answer, well, why, when I wrote this bill, did I 
include localities as small as 12 to be able to apply for a 
COPS grant, and it is for the same reason that we insisted 
everybody be in the Social Security system, which bothers The 
Heritage Foundation as well. You have got to get 51 votes. That 
is a very basic simple reason. If everybody ain't in the deal, 
no one wants to be in the deal.
    As a very practical matter, I think it does have positive 
impact, but the truth of the matter is that you need to gain 
consensus. It is the same reason why when we do not send money, 
when I was chairman, anyway, we do not send money to the 
governors to distribute because, when the governors distribute 
the money, what they do is they have to deal with the 
legislature, and every legislator of the 42 members of the 
House in Delaware, unless the governor gives them all a piece 
of it, they are not going to get it passed. They are not going 
to get it through. So these are practical political 
considerations that--not political--partisan, Democrat, 
Republican, practical governance problems.
    But having said that, what is it that we could most help 
you, Sheriff, and your folks in changing the COPS program in 
some way? I know you strongly support the program, but how 
could we make it better from your perspective?
    Mr. Brown. I do, Mr. Chairman. In fact, depending on what 
side of the issue you are on, you may or may not want to hear 
my comments because I have had nothing but positive results 
with the COPS program.
    I came in as sheriff in 1996, had to get involved with the 
COPS program as soon as I came in. I applied for the COPS 
grant, got two COPS positions. We got two more later on. We 
have now funded them through the Sheriff's Department in 
Bedford County, and Bedford County is a small- to medium-size 
department. We have 84 sworn officers in the county. It is a 
very large county, the third-largest in the State. But I have 
had nothing but positive feedback from other--
    Speaking on behalf of the National Sheriffs' Association, 
most recently at the national convention in Florida in June, I 
heard nothing but positive comments in reference to the COPS 
program.
    Me,, personally, Bedford County, we have had nothing but 
positive action there.
    What I think would help us some would be--I would like to 
see--and this came from my grant administrator within the 
department before I left. She said, ``See if you cannot get 
them to put the COPS application online.'' I do not know since 
she last filled one, if they have gone online. I do not know.
    Chairman Biden. I do not know the answer to that, but it is 
not a bad idea.
    I should tell you, the day after we passed the crime bill, 
2 days later, the Attorney General came in to see me in 1994, 
to thank me. I said, ``General, I would like you to stick 
around a while.'' She said, ``Why?'' I said, ``I want to help 
you write the grant application program.'' She said, ``Well, we 
are working on that.'' ``I just want to make it clear to you. 
It better be one page. It better be one page. I do not want to 
hear anything about''--and she said, ``I thought the role of a 
legislator was to pass the law and let the administrators 
administrate the application.'' I said, ``No, no. I have got 
too much invested in this one. I want to make sure it gets 
simplified.''
    So, to the extent that if we still have this program we can 
simplify it by putting in online, it makes some sense. I do not 
know whether it is online or not. It is not online.
    Mr. Brown. It is not. Well, that was certainly her request 
when I came, in the route up here.
    Chairman Biden. Colonel, how about you? I mean, is there 
anything you would like to see? For example, here is what I 
hear. I hear--and I think it is correct--I hear from elected 
officials as well as--mostly, quite frankly, more from elected 
officials than I hear from the officers that we would like to 
be able to be in a position to use COPS money to retain cops. 
In other words, ``The new COPS bill, if you get it passed, Joe, 
we want to be able to, for example, use it for overtime. We 
want be able to use it for the ability to keep a sworn officer. 
The 3 years of funding has run out, and we do not have the 
money to keep that person going. Can we use part of the money 
to retain a cop that we have already gotten in the COPS 
program? We need more money for technology.'' So the new COPS 
bill calls for $600 million on the hiring side--correct me if I 
am wrong, guys--$375 million for technology grants, and also 
$100 million for more prosecutors, local prosecutors, because 
we found we were having backlogs. We were finding you guys were 
doing such a good job, we were not able to get them through the 
system, and local prosecutors were in dire trouble.
    So there are some of the kinds of things I have been urged 
to change, assuming we can keep this going. Do you have any 
input on that? Are there things we can do to help it?
    Mr. Westphal. Mr. Chairman, let me respond in a few ways on 
that particular question. I do hear that, that there are 
certainly decision-makers that do not support retaining the 
officers after the 3-year period that they have been funded, 
but you were talking about that a little bit ago as far as 
priming the pump, and I wanted to share with you a success 
story from my particular agency where the COPS grant that we 
got back in 1996, it was a COPS MORE grant, and it was for 
technology. It was for 100 mobile data computers, which we were 
implementing that process to try and make officers more 
effective, more efficient, and, in turn, put more officers back 
on the street as opposed to sitting around doing reports and so 
on and so forth.
    That has been a very effective program, and our State 
legislature has followed up by the funding of an additional 350 
mobile data computers. We now have mobile data computers in all 
of our cars, and it has created an additional 20 officers on 
the street that we have been able to redeploy to do other 
things with a grant that only amounted to about a half-a-
million dollars and it was a pump-priming grant.
    Chairman Biden. You needed that data equipment earlier, and 
you were not getting it until you got it through the Federal 
level.
    Mr. Westphal. That is exactly right, Mr. Chairman.
    Chairman Biden. I do not know how we study that, and, 
again, the two academics--I am not being critical. I am being 
serious. When I take a look at studies on this and many other 
issues, I find it hard to figure out--and there may be a way to 
have a control variable as to knowing whether or not you can 
measure that, for lack of a better phrase, psychological impact 
on things going. I do not know. I mean, is there a way to do 
that, or is this anecdotal information just that, anecdotal? Is 
there any way to measure whether or not when the Federal 
Government steps up to the ball and says we are going to do 
something and they start something, it puts pressure, political 
or otherwise, on localities to then do what they were not 
doing?
    Tom, we got a lot of money for those computers in your 
officers' cars. Talk to me about that. What was the effect of 
that? Was that just more hype?
    Mr. Gordon. No. That has been very effective, and it is 
certainly the future. It is not a toy. It does a couple of 
things. It first gave them the ability to be able to do 
criminal checks. So, when a police officer is out there at 
night, they would normally have to call the 911 center, wait 
for the frequencies to clear to check a car. So the safety 
factor is immediate where they can run a check of a tag, even 
before they pull it over, and find out that is a very dangerous 
criminal, that is a very dangerous car. The effects of this are 
just exponential in terms of officer safety. We could not have 
afforded that without the siphon. You cannot as a local 
government get that million dollars.
    You can maintain it. We can maintain it now, never need the 
Federal Government, but we have been years away for getting 
this technology, which should have been done immediately upon 
its discovery to be able to give these officers such a safety 
factor, to be able to now communicate. Instead of traveling the 
airwaves, waiting for a dispatch, they can now dispatch right 
over their radio. So, immediately, they are getting dispatches. 
All of their cars are watching the same dispatches. They are 
not relying on a single frequency which, when now you see what 
we have, looked to be a very dangerous system before we 
realized how systematic and how safe it could be.
    This is one of the greatest abilities of the Federal 
Government to come down and allow--I think every police 
department in this country will have this ability. They must 
have this ability as the danger in the roadways and the 
terrorism is out there. These officers have a tool because of 
this COPS program that is saving lives every day.
    Chairman Biden. Now, what technology, guys? The 
administration indicated--they did not indicate what they would 
do with the COPS program, but they indicated the need for 
Federal investment in technology for local law enforcement, at 
least that is how I understood the testimony. What are the 
kinds of technologies? If you would rather submit this in 
writing, that is fine, but what are the kinds of technologies 
that would be most valuable for you to get help from the 
Federal Government now, either to entice your State government 
or your local government or to supplement what they are already 
doing that makes the life of the officer more secure and 
increases your ability to do the job of crime-fighting more? 
Are there technologies out there that are particularly useful 
that you would need help on?
    Yes, Colonel.
    Mr. Westphal. Senator, one of the issues that we are 
certainly working on in IACP right now is figuring out how we 
are going to share intelligence among the Federal agencies, 
State agencies, local agencies, and make that a two-way sharing 
of information.
    One of the issues in technology is how you have proper 
communication so that you have computer systems that share 
information, two-way sharing, and you also have voice 
communications where you can actually talk to each other when 
incidents occur. That is certainly one of the arenas where 
technology is very, very important for local law enforcement 
agencies.
    In many States where agencies are putting in new voice 
communications systems, the local agencies are not able to buy 
into the system because they do not have the money to buy the 
mobile radios to put in their vehicles. So they are not really 
a part of this integrated system and that certainly is 
something that needs to be addressed in some way, and I think 
the Federal Government could certainly assist in that.
    Chairman Biden. Anecdotal, but, locally, we had a 
particular problem in our largest city, which is a small city, 
our largest city, relating to murders as a consequence of 
firearms. Getting to the FBI the ballistic checks and, in fact, 
the ID was a very, very--correct me if--now, County Executive 
Gordon will know this better than I will. It was a time 
constraint, and you have got to get in line. It was a very 
difficult time lag between the overworked facility at the FBI 
and/or in some States that exist at the State level. So we got 
through one of the grants through to the COPS MORE. We got the 
technology grant to get into the City of Wilmington and New 
Castle County this ability to do ballistic tests that allowed 
them to trace very quickly where this gun--was it used in 
another crime and so on.
    One of the other things people talked about--I am going to 
raise these two in here. I just want to know what the 
consequence is, if every police car in America had them.
    What is that thing called, Tommy, where you put your thumb 
in and you get the automatic--
    Mr. Gordon. The AFIS computer.
    Chairman Biden. Yes. Now, if every police car in America 
had that available to them, what would be the impact on that, 
Sheriff, for you and your law enforcement efforts in terms of 
the safety? I realize we are talking FOP, a lot of guys walking 
the street, too. So I am not suggesting it is always the 
automobile. What are some of the things that are there on the 
market that if we were able to get and train every police 
agency in the country that would have real impacts on, my first 
concern, the physical safety of the police officer and, 
secondly, in turn, the reduction of crime? What are some of 
those things?
    Mr. Brown. Mr. Chairman, if I may. Mr. Gordon and Colonel, 
I think hit on both of them, and that is, as far as the officer 
on the street, it is the on-board computers. I cannot emphasize 
enough the safety factor involved with having on-board 
computers, the mobile data terminals within the cars. We are 
receiving 10 as a result of the COPS MORE grant.
    As Mr. Gordon and the colonel said, you can check it. The 
officer can check it even before the car is stopped. It is just 
immense safety concerns there or immense safety concerns in 
stopping vehicles.
    The other is the compatibility of the radios. We, right 
now, in Bedford County consider our department pretty 
progressive. We have three radios in our car, one for the State 
police, one for the city police, and one for the county. We 
cannot afford to go with the 800-megahertz systems. We cannot 
afford it.
    Chairman Biden. I am not trying to be critical, and I mean 
this sincerely, of your local governments, but one of the 
things that you hear from some of my colleagues, ``Well, that 
is a local responsibility. Why isn't your mayor, your county 
executive, your governor coming up with that money?''
    Mr. Gordon. And it probably is a local responsibility, but 
we are still going to go out and beat the bushes and try to get 
you as the Federal Government involved in this. We need help. 
We need it. We will take it any way we can get it.
    Chairman Biden. Does anybody want to respond to that last 
question?
    Mr. Westphal. Senator, I will respond to that. We in 
Colorado are putting in an 800-megahertz system, and the State 
is responsible for the infrastructure and all the State 
agencies. Many of the local agencies are participating, but we 
have agencies in Colorado that they are so small, small 
sheriff's departments that have two or three deputies, that 
have a budget that is so minute that the price of one mobile 
radio is their operating money for the year, and they really 
need assistance somewhere, and the State simply is not 
providing it at this point in time. So I think it is an 
important issue.
    I would also like to address the issue on the AFIS and the 
fingerprinting. The technology is there--and it has been 
available for some time--to be able to transmit fingerprints 
and mug shots from a car digitally and wirelessly to apprehend 
criminals and identify fugitives. It is the fact that the money 
is not available to buy that technology, and it is very 
expensive to be able to do that mobile and transmit photos and 
fingerprints.
    Chairman Biden. It seems to me, by the way--and I realize 
this is a little afield, but I have got to take advantage of 
your expertise here. This goes beyond the COPS program. It 
seems to me that with the new and understandable evidence on an 
area that I have worked on for 28 years in my career in 
counter-terrorism that this increases expedientally the need 
for this.
    Mr. Westphal. Yes.
    Chairman Biden. I am not poor-mouthing this across the 
board here, and I am being honest. I hope we get into the 
Defense appropriations bill we are about to debate, monies that 
will be available for first responders, including police as 
well as fire services, that will supplement some of the needs 
that you have here to deal particularly with terror activities.
    Senator Byrd has--I think it is--do not hold me to the 
figure, but it is over a hundred--it is $50 million, I think it 
is, in this bill. I think it is $50 million for first 
responders to deal with technologies as well as letting the 
localities make the decision.
    Training. One of you mentioned the need for additional 
training. When we got a problem--and I am not being facetious. 
When we get a problem in Delaware, we do not call the FBI. We 
call Colonel Freebery sitting behind you in her previous 
capacity or we would call the State police or we would call the 
local city police or we would call the town police in Frederica 
to respond, and they are the first ones on the scene. I do not 
want to paint too bleak a picture here. Hopefully, we are going 
to get more monies in that help localities with the added 
burden that has occurred as a consequence of the focus on and 
the realization that terror is a real deal, and it ain't going 
to happen other than locally when it happens.
    God love them, and I am a great supporter of the FBI. There 
were not any FBI agents running in that building because they 
were not there. There were cops running into those Twin Trade 
Towers. The FBI would have run in if they were there. They 
would have run in, just like they would have. So there will be 
some of that.
    Steve, you started to say something, I thought, and I cut 
you off by accident.
    Mr. Young. In your opening statement, you said that 
fundamental principle of the Government is to defend, to 
protect its people. I do not understand, perhaps, some of your 
colleagues' thinking that this is a local issue. If I am within 
the boundaries of this country, why should I have less 
protection in a small town in Ohio than I would have in 
Colorado Springs because of the ability of the local government 
to provide that protection? I mean, that strikes me as a 
statement of the privileged. Those folks feel that their 
communities have adequate protection; therefore, they do not 
need to be concerned with others.
    Chairman Biden. It is called devolution of power, I think 
is what they call it at other places.
    Mr. Young. But if that is, indeed, the case, it is the 
Federal Government's responsibility to protect the citizens of 
the country and to make sure that when we exercise our freedoms 
to go from city to city and State to State, the protection is 
equal.
    Chairman Biden. Well, Steve, I happen to agree with you, 
and I was being a little facetious when I called it devolution 
of Government. As some of my friends at some of the think-
tanks, Heritage as well as many others in town, viewed from 
conservative to liberal, they talk about the new paradigm, and 
there is a new paradigm being pushed hard by the intellectual 
right which is the devolution of power and that local thing 
should be handled locally and the Federal Government should not 
be involved.
    Even if you accept that premise, which I do not fully 
accept, personally, there is--just to make sure, I want to make 
it clear, and then I will let anybody make any closing 
statement they want because I have gone beyond the time I told 
you. It is 11 after 4:00 already.
    One of the reasons why I make no apologies for my pushing 
as hard as I do to expend Federal money for local law 
enforcement is because I would argue, and do argue, that a 
significant portion of the crime you have to deal with in a 
Colorado super highway or in a back crown-top road in the Blue 
Ridge Mountains or in a suburban area of New Castle County or 
in the inner city in Detroit, Michigan, relates to the fact 
that there has been a failure at the Federal level to deal with 
a significant portion of the cause of all the crime you face, 
and that is international and national drug policy.
    You could do everything perfect in each of your 
jurisdictions, and you do not control the inflow of all of that 
cocaine from Colombia. You do not effect all of that heroin 
coming from Afghanistan, coming from Colombia now, and there 
are certain national responsibilities that relate to things 
that are uniquely and only able to be handled federally. You 
can come up with 55--well, it would be 53, but 50 States, 50 
different brilliant drug strategies in your State, and you 
cannot cross the line from Ohio into Illinois and tell them 
what they are going to do there and follow the line the same 
way.
    So I would argue that we have an overwhelming obligation, 
federally. I happen to agree with your basic point, why should 
someone in Colorado Springs get less or more protection than 
someone in Dagsboro, Delaware. They are American citizens, but 
it is the nature, and I love your phrase. It seems to be the 
assertion of the privileged when you are there, but I just 
think that there is room for legitimate debate.
    I want to state for the record, even though I will be 
coming to each of your organizations and there are three 
organizations represented here of police organizations of the 
seven major ones, asking for the help like I always have in the 
past for this legislation.
    I want to be clear to you. There is not a pride of 
authorship here in the sense that if you think something I am 
proposing does not work or it could work better. As your staffs 
will tell you, I am open. I am open. If it ain't working, I do 
not want to do it.
    I came out of a school of thought that when I first got 
here as a 29-year-old kid in 1973--actually elected in 1972--
that there were a lot of people--I used to be called--which 
will shock Mr. Muhlhausen. I used to be called an iconoclast. I 
was not a liberal because I thought we should have crime 
legislation, and I thought public housing did not work and I 
thought of things that were sort of sacrilegious at the time.
    I came away from my formative years in politics concluding 
that no matter how well-conceived a program is, if it does not 
produce results, what will happen is you will have the entirety 
of the initiative lose support of the public at large and 
nothing will happen.
    So, if you have a housing program that 70 percent works and 
30 percent does not, you had better correct the 30 percent that 
does not because that will be used as the club to beat the 70 
percent that does work, and you will have no housing program.
    That is why I say very, very frankly, I want your help if 
the administration concludes to consolidate, reduce, eliminate, 
et cetera, the impact. I am open to see. If they got a better 
idea than the COPS, I am open to that idea, but we need 
significant help at the local level.
    I want to make it clear. If what we are proposing and what 
we have done is not working well or as well as it could, let's 
change it. Let's change it. I am anxious, and I am not kidding, 
David.
    I read not with an eye of skepticism. I read with genuine 
interest The Heritage Foundation--you have got some of the 
brightest people in the country over there, including 
yourself--
    Mr. Muhlhausen. Thank you.
    Chairman Biden. --and I mean that. We have different 
philosophies sometimes on how we approach it, but some of this 
stuff, we just got to sort of slog through and decide because I 
think we are all on the same page. We are all trying to figure 
out what works, what works, what works.
    Again, I step back and think a little bit like--I am not 
going to repeat it--like a cop again, but I think just like 
most citizens thing, and a phrase that Ronald Reagan used to 
always use every time I would go to see him about something and 
as a Senator for the 8 years that I overlapped with him, of the 
seven Presidents I have served with, he used his phrase he 
loved. It was if it ain't broke, don't fix it. I do not know 
what it is that caused--I am not prepared to say I know for 
certain what caused the reduction in crime that has occurred 
over the last decade or more, but whatever it is, I hope the 
hell we keep it going.
    I just know one thing, and I will end where my friend 
began. One of the things that is very much in vogue to say in 
this town by Democrats and Republicans is that money does not 
solve all of the problems. I agree with that, but I do not know 
many big problems they could solve without money. I have not 
figured many of them. Money does not guarantee it gets solved, 
but I sure do not know many that are solved without money. I do 
not know how we get those radios in your car. I do not know how 
we get those computers in the car. I do not know how we get 
cops on the street. I do not know how we do that without money. 
And that does not mean to suggest--and I mean this sincerely, 
and I hope I have demonstrated in my career that I do not think 
if it ain't working, if the money is not being used 
effectively, I do not want in on it because then the very thing 
I am trying to accomplish, I lose all credibility on it.
    So I want to keep this program going, and I would offer as 
evidence to that the way we amended the thing I care most about 
of anything I have ever done, the Violence Against Women Act. 
We amended it. We changed it. Parts of it were not working. We 
got rid of the parts of it that were not working. Even though I 
wrote it, if it did not work, it proves to me they were not 
getting the bang for the buck, and we emphasized other parts. 
That is what I am looking forward to trying to do, and I hope 
the administration will either as a consequence of an 
independent decision they reach to try to work it that way or 
as a consequence of thinking of not being able to get 51 votes 
they will think that way, but I hope we can get this thing 
worked out.
    I would like to ask unanimous consent to insert a statement 
from Senator Kohl in the record as if he were here, and I will 
now yield the floor.
    [The prepared statement of Senator Kohl follows:]

   Statement of Hon. Herbert Kohl, a U.S. Senator from the State of 
                               Wisconsin

    Mr. Chairman,
    Thank you for calling this hearing today on the COPS program. 
Since1994, COPS has become an indispensable part of our ongoing fight 
against crime. When we ask law enforcement officers in Wisconsin how we 
can help them do their jobs and protect our communities, they 
consistently cite the COPS program as the most beneficial use of 
federal money. We have received countless requests for community 
police--from small towns with only two or three officers to the largest 
cities in Wisconsin. Police departments and sheriffs offices throughout 
the state have benefitted from the 1,340 new officers in Wisconsin 
since the program began.
    Today, our panelists will argue whether the COPS program is 
responsible for the consistently lower crime rate during the last half 
of the 1990s. While that is an interesting academic discussion, we know 
what the police and sheriffs in our communities tell us--that COPS have 
made a tremendous difference.
    Now that the authorization for the program has ended and there have 
been rumblings about significantly cutting COPS, we need to think about 
what comes next. Mr. Chairman, we must reauthorize the program for 
50,000 new officers as you have proposed and many of us have supported. 
The law enforcement officers on the street and the citizens in our 
neighborhood know what a difference the program has made. There is no 
sense in shutting down or significantly altering a program that works. 
We must build upon the success of the program and guarantee its future.
    The program is much more than ``cops on the beat''. It is also 
school resource officers, funds to combat the spread of methamphetamine 
and other drugs, and important new crime fighting technologies. For 
example, during the last two years, COPS technology funding has allowed 
the Milwaukee Police Department to upgrade an antiquated communications 
network. The new system is designed to coordinate the response of 
numerous public authorities in the event of a terrorist or bio-
terrorist event.
    Mr. Chairman, the COPS program may be more important now than ever. 
Federal law enforcement officials have very different priorities today 
than they did when we created this program. As a result, they will be 
far less able to assist states and localities in solving and preventing 
crime. More will be expected of state and local law enforcement, and we 
must continue to help them.
    Thank you.

    Chairman Biden. In the order you each testified, if anybody 
would want to have anything to say in closing here, I welcome 
any comments you may have.
    Tom, anything?
    Mr. Gordon. Sure. Senator, I agree with our distinguished 
FOP president that it is the United States constitutional right 
for public safety delegated to the States, and I think we have 
an obligation where those States are failing at some of the 
very basics to assist them.
    I can see it working, again, both as a former chief and now 
I am running the government, and I certainly would not be 
adding police now just for the sake of adding police. I know it 
works, and I could do a study in my county to prove that, but I 
can share with you that. I did not study the numbers, but they 
were pretty clear.
    Chairman Biden. Tom, for the record, roughly, how big is 
your county?
    Mr. Gordon. It has 500,000 people.
    We had a pretty consistent--as I looked at the numbers, as 
you said, during a 10-year period before 1991, those numbers in 
this country did not grow, and they stayed stagnant. Crime 
grew.
    I can tell you that I do not know how you can measure the 
difference between county and State, giving money to public 
safety, because this is a siphon. Every time you pick up three 
police officers, you are funding them 2-1/2, 3 years down the 
road, almost immediately with some of the matching grants. So I 
do not know how you distinguish between exactly where the money 
has gone because it did encourage the locals, the States, and 
the counties to become more involved in public safety and they 
did have to step up to the plate. That is the best part of 
this. It was not forever. You had to get a program in. The 
chief had to make it work, and then he had to sell it to the 
body or he lost the officer. It works.
    Thank you.
    Chairman Biden. Thank you.
    Colonel?
    Mr. Westphal. Thank you, Mr. Chairman.
    On behalf of IACP, I will just say that it don't need no 
fixing because it ain't broke.
    If we are going to do anything, we should add more money, 
not less money. We think it should be left as a separate office 
within the Department of Justice because we want an office that 
addresses just law enforcement issues.
    I would agree with David Muhlhausen that we need to make 
sure that we do submit a plan and we implement it and we 
evaluate it. I think that is only fair, and I think that is 
what everybody wants here. That is what we have been talking 
about today is we need to make sure that we are spending money 
on a program that works, and I think it works. On behalf of 
IACP, we would like to see the program continue.
    Chairman Biden. As our first witness, Mr. Dihn, was kind 
enough to acknowledge, he indicated the COPS program after that 
first 3-year assessment has more people on board. They realize 
they got to do that now. They have been doing it now, and, 
hopefully, it is being effective.
    Mr. Westphal. Absolutely. Yes, sir.
    Chairman Biden. I do not disagree.
    Sheriff?
    Mr. Brown. Mr. Chairman, again, like my distinguished 
colleagues, I can only echo what they have said, and on behalf 
of the National Sheriffs' Association, I thank you very much. 
And I will be delighted to come north at any time to chat with 
you.
    Chairman Biden. Well, as beautiful as the county you 
represent is, I think we should have the next meeting in the 
south.
    At any rate, Steve? Mr. President?
    Mr. Young. Mr. Chairman, I have some concern over the push 
for hard statistical data. Data is a snapshot of the past, 
though I do realize that, absent statistics, you just simply 
have an opinion.
    Policing is not as simple as adding X and Y and coming up 
with Z. Predicting crime is something that no one has perfected 
yet. So, to insist that a program earn its way by meeting an 
exact criteria of statistical data is made difficult by the 
fact that you have a human element involved. I would hate to 
see us go so far that the program is driven by those numbers 
and not by the practicality of what it is really intended to 
do, and that is the prevention of crime.
    It is easy enough to measure the crimes that have been 
committed, but how do you measure the crimes that have been 
prevented? And that seems to be lost in this argument.
    Chairman Biden. Another thing that seems to be lost in this 
argument we all have is the number of cops in America that did 
not die, the number of cops in America that were not injured, 
and the attitude of the cops in America about how they do their 
job.
    I am telling you, I have been doing this for a long time. I 
have been in this deal for 30 years, 31 years elected working 
with cops from the first day, and I am telling you, two things 
have happened, not because of the Federal Government. Two 
things have happened. This ain't your father's Oldsmobile. They 
are a hell of a lot more professional because of the training, 
not their dedication, but they are hell of a lot more 
professional because we spent the money on training. We 
protracted college.
    I do not know how many graduation classes I have done in my 
State. I do not think there has been one in God knows how many 
years where there has not been a college graduate going into 
the program, and we got a different deal here.
    The second thing is the sense of security. I go back to the 
fight, Steve, when we were trying to get bulletproof vests. 
Bulletproof vests, we were trying to get, and that was, by the 
way, only, what, 12, 14 years ago that fight took place. So 
cops, I think, feel not only they are better qualified and 
trained by you all, but I really, truly believe they feel 
better equipped and, therefore, more confident in taking risks 
that maybe they would not take before. Who knows? How do you 
measure it? I guess maybe there is a way to factor that. I do 
not know how.
    Doctor?
    Mr. Zhao. I think it might be interesting just to find out 
what is going on in those small cities, why there is a positive 
relationship between the COPS grants and the crime rates, even 
though those are small, but there are 3,400 cities in our data 
about those cities, less than 10,000 population.
    Chairman Biden. I do not know why the Bureau of Justice 
Statistics and the National Institute of Justice--it may be 
something that we could talk to them--I could contact them to 
see if they would consider funding such a study to try to find 
that out because it is something we should know.
    David?
    Mr. Muhlhausen. Mr. Chairman, The Heritage Foundation study 
received no funding from the Government to do its work. We 
found that hiring grants and the MORE technology grants failed 
to reduce crime. If Congress really wants to promote effective 
programs, they should abolish these programs and fund only the 
innovative grants which have been found to be effective.
    Chairman Biden. Thank you very much.
    Gentlemen and those in the audience who have been staffing 
them and helping them, thank you very, very much for your time. 
I warn you, it will not be the only time I will call on you and 
ask for your opinions, but I do appreciate your time and 
effort. Doctor, I appreciate you making the trek an awful lot 
for being here.
    Thanks a million. We are now adjourned.
    [Whereupon, at 4:25 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

                         QUESTIONS AND ANSWERS

  Responses of Solomon Zhao to questions submitted by the Subcommittee

    Question 1.
    The COPS Office could potentially play a limited role in 
controlling gun crimes. I can see the potential contribution from the 
Office in two areas. First, the Office could provide more Innovative 
Grant funding for controlling gun crimes. Each police agency that 
requests this specific funding would need to provide a detailed plan on 
how the project would be executed. Second, the Office could help 
organize training sessions to disseminate up-to-date knowledge and 
research on gun crime issues.
    Question 2.
    I think that terrorist specialists should be available in every 
large police agency served in cities with greater than 150,000 
population. There are about 150 police agencies across the country. 
Therefore, it would be feasible to train a few hundred specialists. The 
COPS Office certainly could play an important role in the training 
process. It is important to note that the criminal justice system in 
America is very decentralized and operates independently. The COPS 
Office has been a good coordinator in disseminating information and 
assisting local law enforcement agencies. The Office has strengthened 
this infrastructure of its support role over the past six years. I 
don't recall any other federal agency having such an extensive network 
with local agencies like the COPS Office.
    Question 3.
    I agree with the statement that, ``A probation officer who is more 
involved with the daily life of the probationer's community is likely 
to do a much better job of keeping the person on the straight and 
narrow especially with the assistance of the eyes and ears of the 
community where the probation officer works.'' Intensive Supervision 
Programs (ISP) were initiated in the 1980s as a way to supervise and 
control probationers in the community. I don't believe that there will 
be fewer technical violations or crime incidents among probationers 
under ISP because the closer the monitoring, the more likely a 
probation officer would find violations. A mother with 10 children is 
less likely to detect that something is wrong than a mother with only 
one child. However, in the long run, I think ISP is beneficial for the 
community and probationers alike.
    Question 4.
    I am not familiar with the Milwaukee approach but believe that the 
COPS Office is capable of playing a positive role in anti-terrorist 
efforts.

                       SUBMISSIONS FOR THE RECORD

 Statement of Hon. Dianne Feinstein, a U.S. Senator from the State of 
                               California

    Mr. Chairman, I am pleased to offer my support for continuing and 
reauthorizing the COPS program. Thank you for your leadership on this 
important issue.
    I strongly supported the creation of the COPS program in 1994 as 
part of that year's crime bill. And I support its reauthorization.
    As you know, one of my priorities in the Senate has been combating 
crime. And I have long believed that one of the best ways to fight 
crime is to hire more policemen.
    Congress enacted the COPS program as part of the 1994 Crime Bill. 
Since that time, the program has funded 114,000 new officers through 
over 30,000 grants to over 12,000 law enforcement agencies. California 
law enforcement has received funding for over 15,000 additional 
officers.
    And these new officers have made a tremendous difference in helping 
communities battle crime.
    Since COPS was created in 1994, crime has gone down every single 
year that the program has been in existence. In fact, according to the 
FBI Crime Index, the crime rate has dropped 22 percent since the date 
the Crime Bill was enacted.
    The results have been similar in my home state of California. 
According to the California Crime Index, the crime rate has decreased 
there every year since 1994, except there was a slight increase from 
1999 to 2000 in total crime due to a rise in property crime.
    And these results have now been confirmed by the first-ever 
academic study of COPS. This study has found that the COPS program has 
had a ``significant crime
    reducing effect on the vast majority of the population of the 
United States.'' I understand that one of the authors of the study, 
Professor Jihong Zhao, will testify today.
    I was. disappointed that the Administration's first budget request 
proposed to zero out the COPS police hiring program and cut COPS' 
overall budget by 18 percent. I supported reauthorizing COPS for an 
additional five years and expanding and improving the program. 
Ultimately, COPS was funded this year for one year at a slightly higher 
level than last year.
    Mr. Chairman, thank you for the opportunity to offer a statement on 
COPS. I look forward to working with you on preserving and 
strengthening this valuable program.

                                <F-dash>

Statement of Hon. Charles E. Schumer, a U.S. Senator from the State of 
                                New York

    Mr. Chairman, in 1994 the Crime Bill created the COPS on the Beat 
Program. As Chairman of the House Subcommittee on Crime, I helped to 
shepherd this program through Congress because I believed then--and I 
believe now--that Congress should promote the spread of policing 
strategies that prevent crime before it occurs, rather than simply 
reacting to crime.
    Given the new focus on terrorism that the Department of Justice is 
rightfully taking as a result of the September 11th attacks, it is more 
important than ever that local law enforcement has the resources that 
it needs to address crimes in our communities.
    And, it is particularly important in these tough financial times--
when state and local budgets are particularly tight--that the federal 
government not cut back on our support of local law enforcement at the 
same time that federal law enforcement is turning to other pressing 
issues. For both of these reasons, and because of the dramatic success 
of the program, I believe that we must continue the COPS program and 
the federal government's commitment to community policing.
    By the end of last year, the COPS program had awarded grants for 
the hiring or redeployment to the nation's streets of over 100,00 
police officers and sheriff's deputies. It is estimated that by the end 
of this year, over 84,000 of these officers will be on the street.
    The COPS partnership with state and local law enforcement has been 
paying big dividends. According to the 2000 Uniform Crime Reports from 
the FBI, the number of serious crimes is far below where it was five 
and ten years ago--down 14 percent from 1996 and 22 percent from 1991. 
In fact, the 2000 measure was the lowest since 1978.
    The number of murders are also significantly lower than they were 
five and ten years ago--21 percent from 1996 and 37.2 percent from 
1991. And, property crime rates in 2000 were lower as well--13.8 
percent lower than 1996 and 21.4 percent lower than 1991.
    In my home state of New York, since 1994, violent crime has dropped 
40 percent. Murder is down 51 percent, aggravated assault is down 
nearly 29 percent and robbery is down 52 percent.
    Crime is down from one end of the state to the other. The city of 
Albany saw a 20 percent drop in crime and Binghamton saw an 8% drop. 
There was a 26% drop in Buffalo, a 38% drop in New York City, a 21% 
drop in Rochester, and a 22.5% drop in Syracuse.
    A study from the University of Nebraska has shown that the drop in 
the crime rate is due in no small part to the COPS program. They found 
a direct correlation in cities receiving COPS grants between the 
decline in both violent and property crimes and the receipt of COPS 
dollars. I am pleased that Professor Solomon Zhao from the University 
is here to discuss his study, and I look forward to hearing more about 
his findings.
    The research findings are supported by the observations of the 
experts and everyday citizens with direct experience with the COPS 
program. They will tell you that enhanced community policing has played 
a significant role. Police officers develop an intimate knowledge of 
the communities they patrol, in the process discovering what community 
conditions give rise to criminal behavior. In turn, the community sees 
familiar faces patrolling their streets and ultimately develops the 
trust that breeds joint efforts to solve local problems.
    We must continue this successful program that has done so much to 
eradicate crime in this nation. I am sure that many of my colleagues 
have heard, as I have, from police chiefs, rank-and-file officers, 
mayors, city councils, and town boards about how important it is to 
continue the COPS program. In fact, I understand that we will hear from 
several of these local law enforcement officers today about their 
successes under the COPS program.
    They are the ones who have used the program to expand their police 
forces even in the face of increasingly tight local budgets. They are 
the ones who most clearly understand the link between a strong 
community policing presence and safe streets. In closing, I would like 
to thank Senator Biden for holding this hearing today to highlight this 
important crime prevention program. And, I would also like to note that 
I am a co-sponsor of S. 924, the bill that Senator Biden introduced to 
re-authorize this important program. The COPS program has been--and 
should continue to be--a significant part of our successful strategy to 
roll back crime

                                   - 

</pre></body></html>
